APPENDIX A

Case: 20-2778

Document: 10-1

Page: 1

Date Filed: 03/02/2021

February 4, 2021
CLD-084
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2778
JUSTIN M. CORLISS, Appellant
VS.
SUPERINTENDENT COAL TOWNSHIP SCI; ET AL.
(M.D. Pa. Civ. No. 1-18-CV-02192)
Present: RESTREPO, MATEY and SCIRICA, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and

(2)

Appellant’s supplemental request for a certificate of appealability
docketed February 3, 2021
in the above-captioned case.
Respectfully,
Clerk
ORDER

Appellant’s request for a certificate of appealability is denied because jurists of
reason would not debate the District Court’s denial of his habeas petition. See 28 U.S.C.
§ 2253(c)(2); Miller-El v. Cockrell 537 U.S. 322,336 (2003); Slack v. McDaniel. 529 U.S.
473,484 (2000). Having carefully reviewed the record, we make that determination largely
for the reasons explained by the District Court.
We separately address two of appellant’s claims. First, appellant claims that his
trial court committed an ex post facto violation by applying a version of 42 Pa. Cons. Stat.
§ 5552 that the Pennsylvania legislature amended after appellant committed his crimes.
This claim lacks debatable merit because, inter alia and in relevant part, the Pennsylvania
-legislatur-e-extended-the-statute-of-limitations-for-agg-ravated-indecent-assault-before-it
expired as to appellant’s crimes against the victim R.V. See Stogner v. California, 539

Case: 20-2778

Document: 10-1

Page: 2

Date Filed: 03/02/2021

U.S. 607, 618, 632 (2003); United States v. Richardson. 512 F.2d 105, 106 (3d Cir. 1975).
This claim also is procedurally defaulted because appellant did not raise it on direct appeal
(ECF No. 21-22) and cannot raise it in state court now.
Second, appellant claims that his prosecutor violated a purported duty to introduce
into evidence certain documents that appellant claims he brought to the prosecutor’s
attention. Appellant faults the Pennsylvania Superior Court and the District Court for
treating this claim as one under Brady v. Maryland. 373 U.S. 83 (1963). We agree that
appellant did not directly assert a Brady claim in this regard because he did not and does
not claim that his prosecutor withheld these documents from the defense. We conclude,
however, that this claim is not debatable on its own terms.

By the Court,

s/ Paul B. Matey
Circuit Judge
Dated: March 2, 2021
Justin M. Corliss
CJG/cc:
Michael T. Rakaczewski, Esq.

2

APPENDIX B

Case: 20-2778

Document: 12

Page: 1

Date Filed: 05/13/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2778

JUSTIN M. CORLISS,
Appellant
v.
SUPERINTENDENT COAL TOWNSHIP SCI, et al

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil Action No. 1-18-CV-02192)

PETITION FOR REHEARING

BEFORE: SMITH, Chief Judge, and MCKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, Circuit Judges, SCIRICA*, Senior Circuit Judge

The petition for rehearing filed by appellant Justin Corliss in the above-captioned
matter has been submitted to the judges who participated in the decision of this Court and
to all other available circuit judges of the Court in regular active service. No judge who
concurred in the decision asked for rehearing, and a majority of the circuit judges of the
Court in regular active service who are not disqualified did not vote for rehearing by the
Court. It is now hereby ORDERED that the petition for rehearing is DENIED.

* The Vote of Senior Circuit Judge Scirica is Limited to Panel Rehearing Only.

Case: 20-2778

Document: 12

Page: 2

Date Filed: 05/13/2021

BY THE COURT,

s/ Paul B. Matey
Circuit Judge
Dated: May 13, 2021
CJG/cc:
Justin M. Corliss
Michael T. Rakaczewski, Esq.

2

APPENDIX C

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 1 of 54

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
JUSTIN M. CORLISS,
Petitioner,
l:18-cv-2192
v.

Hon. John E. Jones III
THOMAS MCGINLEY, WARDEN,
SCI COAL TOWNSHIP,
Respondent.
MEMORANDUM
August 17, 2020
Petitioner Justin M. Corliss (“Petitioner” or “Corliss”) filed the instant
petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254 (Doc. 1),
accompanied by a supporting brief (Doc. 2), seeking relief from his judgment of
sentences entered in Monroe County Court of Common Pleas, Pennsylvania,
criminal cases 1749-CR-2013 for involuntary deviate sexual intercourse, incest,
attempted involuntary deviate sexual intercourse, corruption of minors, indecent
assault, endangering welfare of minors, indecent exposure, and 2173-CR-2013 for
aggravated indecent assault. (Doc. 1, pp. 1, 2).
The petition is ripe for disposition. For the reasons set forth below, the
Court will deny the petition.

I.

FEDERAL COURT PROCEDURAL BACKGROUND
Uponinitiation.oLthe.proceedings. an Order issued notifying Corliss of the

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 2 of 54

limitations upon his right to file another habeas petition in the future if his petition
is considered by the Court. (Doc. 8). Specifically, the Order notified him of the
following:
Under 28 U.S.C. § 2244(b)(3)(A), no second or successive habeas
petition under section 2254 is allowed unless there are exceptional
circumstances and the petitioner has obtained permission from the
appropriate court of appeals. See United States v. Miller, 197 F.3d 644,
649 (3d Cir. 1999); Mason v. Meyers, 208 F.3d 414,417 (3d Cir. 2000)
(applying Miller requirements to section 2254 habeas petitions as well
as to section 2255 petitions). This means that if your current 2254
habeas petition is considered on the merits and rejected, you no longer
have the right simply to file another 2254 petition in this Court raising
other grounds for relief, even if you are attempting to raise grounds that
you did not think of before filing the current petition. Instead, you
would have to move in the Court of Appeals for a certificate allowing
you to file that second 2254 petition. Further, the grounds upon which
you could rely to obtain that certificate, and proceed with a subsequent
2254 petition, are limited to two extremely rare circumstances: (1) “the
claim relies on a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that was previously
unavailable”, or (2) “the factual predicate for the claim could not have
been discovered previously through the exercise of due diligence” and
“the facts underlying the claim ... would be sufficient to establish by
clear and convincing evidence that, but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the
underlying offense.” 28 U.S.C. § 2244(b)(2).
(Id.). The Order afforded him the opportunity to have the petition ruled on as filed
or withdraw the petition and file one all-inclusive petition. (Id. at 3). On January
18, 2019, Corliss elected to have the petition ruled on as filed. (Doc. 13).
The Court ordered the petition served and Respondent responded. (Doc.
2

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 3 of 54

21). Corliss filed a Traverse. (Doc.22). Since then, he has filed a multitude of
exhibits, supplements, updates and amendments. (Docs. 19, 20, 29-31, 33, 41, 43).
A recent review of the Corliss’ state court electronic dockets revealed that he
initiated Post Conviction Relief Act (“PCRA”), 42 PA. CONS. STAT. §§ 9541-46,
proceedings in both criminal matters, https://uisportal.pacourts.us. This prompted
the Court to stay the matter in accordance with the stay and abeyance rule
announced in Crews v. Horn, 360 F.3d 146, 151 (3d Cir. 2004) (finding that
“[s]taying a habeas petition pending exhaustion of state remedies is a permissible
and effective way to avoid barring from federal court a petitioner who timely files
a mixed petition”) and administratively close the case. Corliss immediately moved
to vacate the Order, indicating that he desired to proceed with the petition as filed.
(Doc. 38). The Court again notified him of the limitations on his right to file
another habeas petition in the future. (Doc. 39). He chose to forego the benefit of
the stay, indicated that he understood that he loses his ability to file a second or
successive petition absent certification by the United States Court of Appeals for
the Third Circuit and that his potential for relief is further limited in a second or
successive petition. (Docs. 40, 42). On July 14,2020, we lifted the stay, reopened
the case, and indicated that a decision in the matter would be forthcoming. (Doc.
42).
3

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 4 of 54

n.

STATE COURT FACTUAL AND PROCEDURAL BACKGROUND
In its Memorandum addressing Corliss’ direct appeal of the convictions

obtained in 1749-CR-2013 and 2173-CR-2013, the Superior Court of Pennsylvania
(“Superior Court”) set forth the following factual and procedural histories:.i
[Appellant] operated a pet store in Monroe County. In 1993, [appellant]
commenced a romantic relationship with his coworker, K.V. Shortly
thereafter, [appellant] moved in the residence K.V. shared with her
minor daughter, R.V. In 1995, when R.V. was approximately nine years
old, [appellant] began to molest R.V. At first, [appellant] would tickle
R.V. when they played together. [Appellant’s] behavior escalated,
however, and he began placing his hands down R.V.’s pants.
[Appellant] digitally penetrated R.V. on multiple occasions between
1995 and 1997. The abuse occurred at KV.’s residence, often while
K.V. was in another room. On one occasion, [appellant] inappropriately
touched R.V. during a car trip to New York. The molestation continued
until 1997, when [appellant] moved out of K.V.’s residence. R.V. did
not immediately report the abuse.
In 1996, fourteen-year old [D.B.1] began to work at [appellant’s] pet
store, [footnonte 1: At the time of appellant's 1998 trial, D.B. was
known as D.G. For the purposes of continuity, we will refer to her as
D.B. throughout this memorandum.]. [D.B.]’s father was a regular
customer at the pet store, and [appellant] had known [D.B.] since she
was eleven years old. After [D.B.] started working at the pet store,
[appellant] would tickle her. [Appellant’s] behavior escalated, and he
began placing his hands down [D.B.]’s pants. Eventually, [appellant]
and [D.B.] engaged in sexual intercourse. [Appellant] also performed
oral sex on [D.B.] on multiple occasions.
The abuse occurred at the pet store during regular business hours. On
two occasions, [D.B.]’s twelve-year-old friend witnessed the sexual
activity. [Appellant] also fondled [D.B.] during car trips to New York.
1 In reciting the factual history, the Superior Court quoted a previous appellate panel. In setting
__forth the procedural history, the court relied on the trial court’s depiction of events._________
4

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 5 of 54

[D.B.] testified that [appellant] took her on these trips “almost every
single Monday” to pick up supplies for the pet store. In addition to the
liaisons at work, [appellant] molested [D.B.] at K.V.'s residence at least
once. In 1997, [D.B.]’s mother learned about the abuse and
immediately informed the police.
At No. 743 of 1997, the Commonwealth charged [appellant] with
multiple offenses related to the molestation of [D.B.] Following a trial
in 1998, a jury convicted [appellant] of two (2) counts of statutory
sexual assault and one (1) count each of aggravated indecent assault,
indecent assault, and corruption of minors. On August 20, 1998, the
[trial] court sentenced [appellant] to an aggregate term of four (4) to ten
(10) years’ imprisonment. This Court affirmed the judgment of
sentence on November 30, 1999. See Commonwealth v. Corliss, 750
A.2d 366 (Pa.Super. 1999) (unpublished memorandum).
Prior to the start of the 1998 trial, [appellant] met C.T. at the pet store.
[Appellant] and C.T. married, and C.T. became pregnant before
[appellant’s] sentencing hearing. C.T. gave birth to [appellant’s]
daughter, C.C., in 1999 while [appellant] was incarcerated. [Appellant]
remained incarcerated until 2008. Upon his release, [appellant] returned
to live with C.T. and C.C. C.T. had no concerns about [appellant] being
around C.C., because [appellant] had convinced C.T. that he was
actually innocent of the charges pertaining to [D.B.]
When [appellant] would play with C.C., C.T. noticed that [appellant]
tickled the child and scratched the child’s back. The tickling started to
bother C.C., and she asked [appellant] not to touch her, but C.T. did not
intervene. [Appellant’s] relationship with C.T. ended in 2010, after
C.T. discovered that [appellant] was having an affair with another
teenager. In 2013, C.C. informed C.T. that [appellant] had molested her.
C.C. claimed that [appellant] would put his hands down her pants and
touch her vagina, exposed his penis to C.C., and attempted to force the
child to perform oral sex on him.
Police arrested [appellant] for the offenses against C.C. in July 2013.
The media reported on [appellant’s] arrest, and R.V. saw the coverage.
R.V. decided to contact police and inform them of the abuse she
5

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 6 of 54

suffered from 1995 until 1997. At No. 1749 of 2013, the
Commonwealth charged [appellant] with sex offenses committed
against C.C. At No. 2173 of 2013, the Commonwealth charged
[appellant] with sex offenses committed against R.V. [Footnote 1] On
September 24,2013, the Commonwealth informed [appellant] that Nos.
1749 and 2173 of 2013 would be joined for trial. [Appellant] filed
counseled pretrial motions on October 3, 2013, including a motion to
sever the cases. Ultimately, the [trial] court granted [appellant’s]
motion to sever the cases for trial.
[Footnote 1:] At No. 1748 of 2013, the Commonwealth also
charged [appellant] with offenses related to his failure to register
with state police pursuant to Megan's Law. The matters of No.
1748 of 2013 are not at issue in this appeal.
Commonwealth v. Corliss, No. 2091 EDA 2014, unpublished
memorandum (Pa. Super, filed July 14, 2015).
The trial court provided the following procedural history:
[Appellant] was convicted by a jury on June 1,2016 of various offenses
following a trial in which these two (2) cases were consolidated. In case
# 1749 CR 2013, [appellant] was convicted of Count 1, Involuntary
Deviate Sexual Intercourse With a Child; Count 2, Criminal Attempt
Involuntary Deviate Sexual Intercourse With a Child; Count 3, Indecent
Assault; Count 4, Indecent Exposure; Count 5, Incest; Count 6,
Endangering the Welfare of a Child; and, Count 7, Corruption of a
Minor. [Footnote 2: 18 Pa.C.S.A. §§ 3123(b), 901, 3126, 3127, 4302,
4304, 6301, and 3125, respectively.]. [Appellant] was convicted in
case # 2173 CR 2013 of Court 1, Aggravated Indecent Assault;
[Footnote 3: 18 Pa.C.S.A. § 3125.] and Count 2, Aggravated Indecent
Assault....
[Appellant] was deemed a sexually violent predator (“SVP”) on
September 29, 2016 following a hearing, which subjects him to
mandatory lifetime sexual offender registration requirements.
[Appellant] was then sentenced on October 7, 2016 in case # 1749 CR
2013 to a total confinement of 360 months (30 years) minimum to 720
6

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 7 of 54

months (60 years) maximum. [Appellant] was sentenced on October 7,
2016 in case #2173 CR 2013 to a total confinement of 108 months (9
years) minimum to 216 months (18 years) maximum. The sentence in
case #2173 was run consecutive to case # 1749 for a total period of
incarceration of 468 months (39 years) to 936 months (78 years).
[Appellant] has filed timely post-sentence motions.
[Appellant] was initially represented in these matters by private
counsel, Robert Saurman, Esquire, who filed omnibus pre-trial motions
on behalf of [appellant. Appellant] then fired his legal counsel and
proceeded pro se following a hearing in which a colloquy was given to
[appellant] concerning his right to counsel, a listing of the offenses and
maximum penalties if convicted, and that [appellant] was making a
voluntary waiver of counsel. The Court also appointed stand-by counsel
for [appellant. Appellant] then represented himselfpro se in filing
various motions and appeals to Orders. The matter was set for trial and
[appellant] then retained private counsel prior to the start of trial.
[Appellant] terminated the services of his trial counsel soon after the
trial, and again proceeded to represent himself following a hearing on
his motion to proceed pro se. [Appellant] was given another colloquy
on his pro se representation at that time. [Appellant] represented
himself at sentencing held on October 7, 2016. Following sentencing,
[appellant] filed post-sentence motions pro se. He then retained counsel
to represent him on the post-sentence issues and counsel was afforded
additional time to file any additional post-sentence motions. Counsel
timely filed additional post-sentence motions. [Appellant] then filed a
motion to proceed pro se once again, and his counsel also filed a motion
to withdraw. Following a hearing held on November 23, 2016, and a
colloquy placed on the record, [appellant] was allowed to proceed pro
se on his post-sentence motions.
Trial court opinion, 12/15/16 at 1-3.
The trial court granted appellant’s post-sentence motions in part and
denied appellant’s post-sentence motions in part. Specifically,
appellant’s motion to reconsider his sentence for endangering the
welfare of a child was granted, and his sentence was reduced from 2-4
7

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 8 of 54

years’ incarceration to be served concurrently with his other sentences
to 1-2 years’ incarceration to be served concurrently with his other
sentences. (Notes of testimony, 10/7/16 at 84; trial court order,
12/15/16).
Appellant filed a notice of appeal on January 3, 2017. The trial court
ordered appellant to produce a concise statement of errors complained
of on appeal pursuant to Pa.R.A.P. 1925(b) on January 4, 2017.
Appellant timely complied with the trial court’s order on January 20,
2017. On January 23, 2017, the trial court issued an opinion pursuant
to Pa.R.A.P 1925(a).
Appellant raises the following issues for our review:
1. Whether a judgment of acquittal or an arrest of judgment must issue
as to six crimes convicted of when the jury did not render a decision as
to the challenged element of negating the statute of limitations.
2. Whether the testimony of complainant C.C. was sufficient to meet
the elements of involuntary deviate sexual intercourse and incest.
3. Whether testimony of intercourse, that conflicts with incontrovertible
DNA evidence, and other false testimony suborned by ADA
Rakaczewski from bad acts witness [D.B.], violates the 5th, 6th, and
14th Amendments to the U.S. Constitution requiring the conviction to
be vacated.
4. Whether the trial court's representation of the exculpatory DNA
evidence is violative (sic) of the right to due process of law. [Footnote
4: Issue 4 is identified by appellant as a “subquestion” under his third
issue.].
5. Whether Rakaczewski's deliberate omission of exculpatory evidence
and known credibility challenges, as to complainant C.C., violated
[appellant's] right to due process of law, as guaranteed through the U.S.
Constitution, warranting that the conviction and sentence be vacated.
Appellant's brief at 4.
8

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 9 of 54

Commonwealth v. Corliss, No. 108 EDA 2017, 2017 WL 6196304, at *1-3 (Pa.
Super. Ct. Dec. 8, 2017). The Superior Court affirmed Corliss’ judgment of
sentence on December 8, 2017. (Id.). Thereafter, on February 14, 2018, the court
denied reargument. Com. v. Corliss, 181 A.3d 1212 (Pa. Super. Ct. 2017), for text,
see Commonwealth v. Corliss, No. 108 EDA 2017, 2017 WL 6196304 (Pa. Super.
Ct. Dec. 8, 2017). The Supreme Court of Pennsylvania denied the petition for
allowance of appeal on October 30, 2018. Commonwealth v. Corliss, 196 A.3d
616 (Pa. 2018).
On November 13, 2018, he filed the instant petition.
III.

ISSUES PRESENTED FOR FEDERAL REVIEW
Corliss seeks federal review of the following issues:
“Ground #1: Petitioner was charged with crimes that are time-barred;
thereby, the Commonwealth failed to establish prima facie cases and
the courts lacked subject matter jurisdiction to proceed on them as
doing so violates due process of law and implicates the ex post facto
clause.” (Doc. 2, p. 23).
“Ground #2: The convictions for any of the six time-barred charges
were unconstitutionally obtained as the court relieved the
Commonwealth of the burden to prove the essential element of crime
of negating limitations.” (Id. at 39).
“Ground #3: Petitioner was charged with crimes that possess an
element of ‘sexual intercourse’ though no evidence exists to support
same; thereby, the Commonwealth failed to establish a prima facie case
as to any of these charges and the court lacked jurisdiction to proceed
on them.” (Id. at 54).
9

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 10 of 54

“Ground #4: The conviction for any of the three charges having an
element of ‘sexual intercourse’ were unconstitutionally obtained as no
evidence was adduced to support such.” (Id. at 62).
“Ground #5: It was constitutional error for the trial court to change the
evidence required to meet ‘sexual intercourse,’ upon instructing the
jury, to elements Petitioner was not on notice to defend against,
resulting in an impermissible variance.” (Id. at 67).
“Ground #6: Prosecutor Rakaczewski engaged in the criminal
subornation of perjury from [D.B.]” (Id. at 89).
“Ground #7: Rakaczewski refused to put into evidence emails and
other known evidence that challenged C.C’s credibility and proves that
no untoward conduct occurred.” (Id. at 112).
“Ground #8: Rakaczewski refused to correct [D.B.’s] stated claim that
(Id. at 131).
the DNA evidence from 1998 was ‘inconclusive.
1

11

“Ground #9: Petitioner was subjected to a mandatory minimum
sentence that was based on the false conviction from 1998 involving
[D.B.], the DNA evidence, and is unconstitutional as a matter of law.”
(Id. at 152).
IV.

DISCUSSION
A.

Standard of Review

A habeas corpus petition pursuant to 28 U.S.C. § 2254 is the proper
mechanism for a prisoner in custody pursuant to the judgment of a state court to
challenge the “fact or duration” of his confinement. Preiser v. Rodriguez, 411 U.S.
475, 498-99 (1973). 28 U.S.C. § 2254, provides, in pertinent part:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
10

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 11 of 54

court shall entertain an application for a writ of habeas corpus in behalf
of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws
or treaties of the United States.
(b)(1) an application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted
unless it appears that (A) the applicant has exhausted the remedies available in
the courts of the State;

(d) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding.
28 U.S.C. § 2254.
Section 2254 clearly sets limits on the power of a federal court to grant an
application for a writ of habeas corpus on behalf of a state prisoner. Cullen v.
Pinholster, 536 U.S. 170, 181 (2011); Glenn v. Wynder, 743 F.3d 402, 406 (3d Cir.
2014). A federal court may consider such a petition only “on the ground that he is
in custody in violation of the Constitution or laws or treaties of the United States.”
li

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 12 of 54

28 U.S.C. § 2254(a). By limiting habeas relief to state conduct which violates “the
Constitution or laws or treaties of the United States,” § 2254 places a high
threshold on the courts.
Further, “it is not the province of a federal habeas court to reexamine statecourt determinations on state-law questions. In conducting habeas review, a
federal court is limited to deciding whether a conviction violated the Constitution,
laws, or treaties of the United States. 28 U.S.C. § 2241; Rose v. Hodges, 423 U.S.
19, 21, 96 S.Ct. 175, 177, 46 L.Ed.2d 162 (1975) (per curiam).” Estelle v.
McGuire, 502 U.S. 62, at 67-68 (1991). A federal habeas court may not consider a
petitioner’s claims of state law violations; review is limited to issues of federal
law. See Estelle, 502 U.S. at 67-68 (“[I]t is not the province of a federal habeas
court to reexamine state-court determinations on state-law questions.”); Pulley v.
Harris, 465 U.S. 37, 41 (1984) (“A federal court may not issue the writ on the
basis of a perceived error of state law.”); Engle v. Isaac, 456 U.S. 107, 120 n.19
(1982) (“If a state prisoner alleges no deprivation of a federal right, § 2254 is
simply inapplicable.”).
B.

Non-Cognizable Claims
1.

Grounds land 2

Corliss challenges his convictions in 1749-CR-2013 and 2173-CR-2013 on
12

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 13 of 54

timeliness grounds.2 He specifically takes issue with the state courts’ conclusions
that, in accordance with Pennsylvania law, the statute of limitations defense posed
a question of law for the judge as opposed to a question of fact to be submitted to
the jury. The state noted that “ ‘ [wjhere the date of discovery of criminal acts is
unrebutted, the issue of whether the statute of limitations for prosecution has run is
a question of law for the trial judge.’ Corban Corp., 909 A.2d at 410, citing
Commonwealth v. Hoffman, 398 A.2d 658, 661 (Pa.Super. 1979).” Commonwealth
v. Corliss, No. 108 EDA 2017, 2017 WL 6196304, at *4 (Pa. Super. Ct. Dec. 8,
2017). “In Pennsylvania, the statute of limitations is not a constitutional right but,
instead, is an act of legislative grace, whereby the government surrenders its ability
to prosecute an individual after the passage of a stated period of time. See
Commonwealth v. Johnson, 520 Pa. 165, 170, 553 A.2d 897, 900 (1989); see also
Commonwealth v. Wilcox, 56 Pa.Super. 244, 250 (1914).” Com. v. Russell, 2007
PA Super 376, 938 A.2d 1082, 1087 (2007). Corliss’ challenges to the timeliness
of the prosecutions on state law grounds are not cognizable in a federal habeas
corpus proceeding. To the extent that this claim implicates federal rights, it is

2 “In considering a § 2254 petition, we review the ‘last reasoned decision’ of the state courts on
the petitioner’s claims.” Simmons v. Beard, 590 F.3d 223, 231-32 (3d Cir. 2009) (citing Bond v.
Beard, 539 F.3d 256, 289-90 (3d Cir. 2008)). The trial court issued multiple consistent decision
on the statute of limitations in 1749 CR 2013 and 2173 CR 2013. On appeal, the Superior Court
only addressed 1749 CR 2013. Hence, we rely on both the trial court and appeals courts’
determinations in analyzing the statute of limitations claims.
13

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 14 of 54

addressed in the merits section below.
2.

Grounds 3. 4. and 5

In challenging the IDSI convictions, Corliss argues that the state court
ignored various definitions outside the IDSI statute in upholding the convictions.
He invites the Court to engage in statutory construction and delve into the intent of
the Pennsylvania General Assembly. (Doc. 2, pp. 56, 57, 60, 63, 64, 69, 71, 72,
79). We will not consider these arguments as they are based on state law grounds.
However, the federal claim of whether there existed sufficient evidence to support
the IDSI convictions is addressed in the merits section infra.
C.

Exhaustion and Procedural Default

Absent unusual circumstances, a federal court should not entertain a petition
for writ of habeas corpus, unless the petitioner has first satisfied the exhaustion
requirement articulated in 28 U.S.C. § 2254(b). The exhaustion requirement is
grounded on principles of comity to ensure that state courts have the initial
opportunity to review federal constitutional challenges to state convictions. See
Werts v. Vaughn, 228 F.3d 178, 192 (3d Cir. 2000); Picard v. Connor, 404 U.S.
270, 275-76 (1971). The habeas statute codifies this principle by requiring that a
petitioner exhaust available remedies in state court, meaning a state prisoner must
“fairly present” his claims in “one complete round of the state’s established
14

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 15 of 54

appellate review process,” before bringing them in federal court. See 28 U.S.C. §
2254(b)(1)(A); O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999) (stating
“[b]ecause the exhaustion doctrine is designed to give the state courts a full and
fair opportunity to resolve federal constitutional claims before those claims are
presented to the federal courts,. .. state prisoners must give the state courts one
full opportunity to resolve any constitutional issues by invoking one complete
round of the State’s established review process.”); see also Duncan v. Henry, 513
U.S. 364, 365 (1995); Picard, 404 U.S. at 275 (1971); Lambert v. Blackwell, 134
F.3d 506, 513 (3d Cir. 1997). This requires that the claim brought in federal court
be the substantial equivalent of that presented to the state courts. Picard, 404 U.S.
at 278; see also McCandless v. Vaughn, 172 F.3d 255, 261 (3d Cir. 1999) (holding
that petitioner must present both “factual and legal substance” of claim to state
courts). Mere reliance of state and federal claims on the same constitutional
provision does not render the two claims substantially equivalent. See Brown v.
Cuyler, 669 F.2d 155 (3d Cir. 1982); Zicarelli v. Gray, 543 F.2d 466 (3d Cir.
1976). Both the legal theory and the facts on which a federal claim rests must have
been presented to the state courts. See Picard, 404 U.S. at 277; Brown, 669 F.2d at
158-61.
Additionally, a federal habeas court “will not review a question of federal
15

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 16 of 54

law decided by a state court if the decision of that court rests on a state law ground
that is independent of the federal question and adequate to support the judgment.
See, e,g., Fox Film Corp. v. Muller, 296 U.S. 207, 210, 56 S.Ct. 183, 184, 80 L.Ed.
158 (1935); Klinger v. Missouri, 13 Wall. 257, 263, 20 L.Ed. 635 (1872). This rule
applies whether the state law ground is substantive or procedural. See, e.g., Fox
Film, supra; Herndon v. Georgia, 295 U.S. 441, 55 S.Ct. 794, 79 L.Ed. 1530
(1935).” Coleman, 501 U.S. at 729, holding modified by Martinez v. Ryan, 566
U.S. 1 (2012). The requirements of “independence” and “adequacy” are distinct.
Johnson v. Pinchak, 392 F.3d 551, 557-59 (3d Cir. 2004). State procedural
grounds are not independent, and will not bar federal habeas relief, if the state law
ground is so “interwoven with federal law” that it cannot be said to be independent
of the merits of a petitioner’s federal claims. Coleman, 501 U.S. at 739-40. A state
rule is “adequate” for procedural default purposes if it is “firmly established and
regularly followed.” Johnson v. Lee,

U.S.

, 136 S. Ct. 1802,1804, 195

L.Ed.2d 92 (2016) (per curiam) (citation omitted). These requirements ensure that
“federal review is not barred unless a habeas petitioner had fair notice of the need
to follow the state procedural rule,” and that “review is foreclosed by what may
honestly be called ‘rules’ ... of general applicability[,] rather than by whim or
prejudice against a claim or claimant.” Bronshtein v. Horn, 404 F.3d 700, 707-08
16

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 17 of 54

(3d Cir. 2005). “In the absence of the independent and adequate state ground
doctrine in federal habeas, habeas petitioners would be able to avoid the exhaustion
requirement by defaulting their federal claims in state court. The independent and
adequate state ground doctrine ensures that the States’ interest in correcting their
own mistakes is respected in all federal habeas cases.” Edwards v. Carpenter, 529
U.S. 446, 452-53 (2000).
The failure to properly present claims to the state court generally results in a
procedural default. Lines v. Larkin, 208 F.3d 153, 150-60 (3d Cir. 2000). “When a
claim is not exhausted because it has not been ‘fairly presented’ to the state courts,
but state procedural rules bar the applicant from seeking further relief in state
courts, the exhaustion requirement is satisfied because there is ‘an absence of
available State corrective process.’ 28 U.S.C. § 2254(b). In such cases, however,
applicants are considered to have procedurally defaulted their claims and federal
courts may not consider the merits of such claims unless the applicant establishes
‘cause and prejudice’ or a ‘fundamental miscarriage of justice’ to excuse his or her
default. See Coleman v. Thompson, 501 U.S. 722, 750, 111 S.Ct. 2546, 115
L.Ed.2d 640 (1991).” McCandless, 111 F.3d at 260.
To demonstrate “cause” for a procedural default, a petitioner must point to
some objective external factor which impeded his efforts to comply with the state’s
17

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 18 of 54

procedural rule. See Murray v. Carrier, 477 U.S. 478, 488 (1986). “Prejudice”
will be satisfied only if he can demonstrate that the outcome of the state
proceeding was “unreliable or fundamentally unfair” as a result of a violation of
federal law. See Lockhart v. Fretwell, 506 U.S. 364, 366 (1993).
Alternatively, if a petitioner demonstrates that a “constitutional violation has
probably resulted in the conviction of one who is actually innocent,” Murray, All
U.S. at 496, then a federal court can excuse the procedural default and review the
claim in order to prevent a fundamental miscarriage of justice. Edwards, 529 U.S.
at 451 (2000); Wenger v. Frank, 266 F.3d 218, 224 (3d Cir. 2001). The
miscarriage of justice exception applies only in extraordinary cases, and actual
innocence means factual innocence, not legal insufficiency. Bousley v. United
States, 523 U.S. 614, 623 (1998); Murray, All U.S. at 496. A petitioner
establishes actual innocence by asserting “new reliable evidence—whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence—that was not presented at trial,” showing that no reasonable
juror would have voted to find the petitioner guilty beyond a reasonable doubt.
Hubbard v. Pinchak, 378 F.3d 333, 339-40 (3d Cir. 2004).
1.

Ground 8

In his eighth ground, Corliss argues that he is entitled to relief because the
18

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 19 of 54

prosecutor refused to correct DB’s claim that the DNA evidence from 1998 was
inconclusive. (Doc. 2, p. 131). He relies on a March 2017 DNA report which
purports to exclude him as the donor of any DNA material found on DB’s clothes.
(Id. at 136-151).
Corliss raised the issue on appeal. The Superior Court did not consider the
claim stating as follows:
The [March 1, 2017 DNA] report is not found within the record that
was certified by the trial court.
The fundamental tool for appellate review is the official record of
the events that occurred in the trial court. Commonwealth v.
Williams, 715 A.2d 1101, 1103 (Pa. 1998). To ensure that an
appellate court has the necessary records, the Pennsylvania Rules
of Appellate Procedure provide for the transmission of a certified
record from the trial court to the appellate court. Id. The law of
Pennsylvania is well settled that matters which are not of record
cannot be considered on appeal. Commonwealth v. Bracalielly,
658 A.2d 755,763 (Pa. 1995); Commonwealth v. Baker, 614 A.2d
663, ,672 (Pa. 1992); Commonwealth v. Quinlan, 412 A.2d 494,
496 (Pa. 1980); Commonwealth v. Young, 317 A.2d 258 (Pa.
1974). Thus, an appellate court is limited to considering only the
materials in the certified record when resolving an issue.
Commonwealth v. Walker, 878 A.2d 887, 888 (Pa. Super. 2005).
In this regard, our law is the same in both the civil and criminal
context because, under the Pennsylvania Rules of Appellate
Procedure, any document which is not part of the officially
certified record is deemed non-existent—a deficiency which
cannot be remedied merely by including copies of the missing
documents in a brief or in the reproduced record. Commonwealth
v. Kennedy, 868 A.2d 582, 593 (Pa.Super. 2005); Lundy v.
Manchel, 865 A.2d 850, 855 (Pa.Super. 2004). The emphasis on
the certified record is necessary because, unless the trial court
19

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 20 of 54

certifies a document as part of the official record, the appellate
judiciary has no way of knowing whether that piece of evidence
was duly presented to the trial court or whether it was produced
for the first time on appeal and improperly inserted into the
reproduced record. Simply put, if a document is not in the certified
record, the Superior Court may not consider it. Walker, 878 A.2d
at 888.
Commonwealth v. Preston, 904 A.2d 1, 6-7 (Pa.Super. 2006), appeal
denied, 916 A.2d 632 (Pa. 2007).
Because the March 1, 2017 report is not part of the certified record, we
cannot consider the contents of the report when deciding appellant’s
third issue.
Commonwealth v. Corliss, 2017 WL 6196304, at *7-8. The applicable procedural
rule firmly states that the state court may not consider anything that is not part of
the certified record: “Any document which is not part of the official certified
record is considered to be non-existent, which deficiency may not be remedied by
inclusion in the reproduced record[,]” and “[w]here a review of an appellant’s
claim may not be made because of such a defect in the record, we may find the
issue waived.” Eichman v. McKeon, 824 A.2d 305, 316 (Pa.Super.2003) (citing
Pa.R.A.P. 1921). Rule 1921 states that “[t]he original papers and exhibits filed in
the lower court, paper copies of legal papers filed with the prothonotary by means
of electronic filing, the transcript of proceedings, if any, and a certified copy of the
docket entries prepared by the clerk of the lower court shall constitute the record
on appeal in all cases.” Pa.R.A.P., Rule 1921.
20

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 21 of 54

“A state court’s invocation of a procedural rule to deny a prisoner’s claims
precludes federal review of the claims if, among other requisites, the state
procedural rule is a nonfederal ground adequate to support the judgment and the
rule is firmly established and consistently followed. See, e.g., Walker v. Martin,
562 U.S.
Kindler, 558 U.S.

, 131 S.Ct. 1120, 1127-1128, 179 L.Ed.2d62 (2011); Beard v.
, 130 S.Ct. 612, 617-618, 175 L.Ed.2d 417 (2009).

The doctrine barring procedurally defaulted claims from being heard is not without
exceptions. A prisoner may obtain federal review of a defaulted claim by showing
cause for the default and prejudice from a violation of federal law. See Coleman,
501 U.S., at 750, 111 S.Ct. 2546.” Martinez v. Ryan, 566 U.S. 1, 9-10 (2012).
There is no dispute that Pennsylvania’s procedural bar applicable to reliance
on, or inclusion of, a document which is not part of the officially certified record
on appeal is a firmly established independent and adequate state law ground. Thus,
we can hear this claim only if Corliss can establish cause to excuse the procedural
default and prejudice from a violation of federal law. He fails to identify some
objective external factor which prevented him from complying with the state’s
procedural rules in presenting this claim and he does not demonstrate that the
outcome of the state proceeding was “unreliable or fundamentally unfair” as a
result of a violation of federal law. Nor is there any argument or indication that a
21

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 22 of 54

“constitutional violation has probably resulted in the conviction of one who is
actually innocent,” Murray, All U.S. at 496. Federal review of the claim is
therefore barred.
2.

Ground 9

In Ground 9, Corliss contends that he “was subjected to a mandatory
minimum sentence that was based on a false conviction from 1998 involving
[D.B.], the DNA evidence, and is unconstitutional as a matter of law.” (Doc. 2, pp.
152-159). This issue is included in the “Sentencing” section of his Statement of
Matters Complained of on Appeal pursuant to Pa.R.A.P. 1925(b). (Doc. 21-20, p.
5). In its Pa.R.A.P. 1925(a) opinion, the trial court referenced its prior opinion
addressing post-sentence motions, which included a discussion of the mandatory
minimum sentence. (Doc. 21-17, pp. 28, 29; Doc. 21-21). However, Corliss failed
to pursue the matter in the Superior Court. His brief is devoid of any mention of
the mandatory minimum sentence issue. (Doc. 21-22, p. 3). Consequently, the
claim is procedurally defaulted.
He fails to identify some objective external factor which prevented him from
complying with the state’s procedural rules in presenting this claim and he does not
demonstrate that the outcome of the state proceeding was “unreliable or
fundamentally unfair” as a result of a violation of federal law. Nor is there any
22

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 23 of 54

argument or indication that a “constitutional violation has probably resulted in the
conviction of one who is actually innocent,” Murray, All U.S. at 496. Federal
review of the claim is foreclosed.
D.

Review of Claims Adjudicated on the Merits

As set forth supra, under the AEDPA, federal courts reviewing a state
prisoner’s application for a writ of habeas corpus may not grant relief “with respect
to any claim that was adjudicated on the merits in State court proceedings” unless
the claim (1) “resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States” or (2) “resulted in a decision that was based
on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.” 28 U.S.C. § 2254(d). “In considering a § 2254
petition, we review the ‘last reasoned decision’ of the state courts on the
petitioner’s claims.” Simmons v. Beard, 590 F.3d 223, 231-32 (3d Cir. 2009)
(citing Bond v. Beard, 539 F.3d 256, 289-90 (3d Cir. 2008) ). Thus, “[w]e review
the appellate court decision, not the trial court decision, as long as the appellate
court ‘issued a judgment, with explanation, binding on the parties before it.

?

Burnside v. Wenerowicz, 525 F. App’x 135, 138 (3d Cir. 2013). However, when
the highest state court that considered the claim does not issue a reasoned opinion,
23

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 24 of 54

we “look through” that decision to the last reasoned opinion of the state courts, and
we apply a rebuttable presumption that the higher court adopted the same
reasoning as that set forth by the lower court. Wilson v. Sellers, — U.S. —, 138 S.
Ct. 1188, 1192 (2018).
“[B]ecause the purpose of AEDPA is to ensure that federal habeas relief
functions as a guard against extreme malfunctions in the state criminal justice
systems, and not as a means of error correction,” Greene v. Fisher, 565 U.S. 34, 38
(2011) (internal quotations and citations omitted), “[t]his is a difficult to meet and
highly deferential standard . .. which demands that state-court decisions be given
the benefit of the doubt.” Cullen, 563 U.S. at 181 (internal quotation marks and
citation omitted). The burden is on Corliss to prove entitlement to the writ. Id.
A decision is “contrary to” federal law if “the state court applies a rule that
contradicts the governing law set forth in [Supreme Court] cases” or “if the state
court confronts a set of facts that are materially indistinguishable from a decision
of [the Supreme] Court and nevertheless arrives at a result different from [Supreme
Court] precedent.” Williams v. Taylor, 529 U.S. 362, 405-06 (2000).
“[A] state court decision reflects an ‘unreasonable application of such law’
only ‘where there is no possibility fairminded jurists could disagree that the state
court’s decision conflicts with [the Supreme] Court’s precedents,’ a standard the
24

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 25 of 54

Supreme Court has advised is ‘difficult to meet’ because it was ‘meant to be.’
[Harrison v.] Richter, 562 U.S. 86, [ ] 102, 131 S.Ct. 770. As the Supreme Court
has cautioned, an ‘unreasonable application of federal law is different from an
incorrect application of federal law,’ Richter, 562 U.S. at 101, 131 S.Ct. 770
(quoting Williams, 529 U.S. at 410, 120 S.Ct. 1495), and whether we ‘concludef ]
in [our] independent judgment that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly’ is irrelevant, as AEDPA sets a
higher bar. Williams, 529 U.S. at 411, 120 S.Ct. 1495.” Mathias v. Superintendent
Frackville SCI, 876 F.3d 462, 476 (3d Cir. 2017). A decision is based on an
“unreasonable determination of the facts” if the state court’s factual findings are
objectively unreasonable in light of the evidence presented to the state court.
Miller-El v. Cockrell, 537 U.S. 322, 340 (2003).
Finally, Section 2254(e) provides that “[i]n a proceeding instituted by an
application for a writ of habeas corpus by a person in custody pursuant to the
judgment of a State court, a determination of a factual issue shall be presumed to
be correct. The applicant shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.” 28 U.S.C. § 2254(e)(1).
1.

Grounds 1 and 2

In his first and second grounds, Corliss argues that the prosecutions in 1949
25

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 26 of 54

CR 2013 and 2173 CR 2013, were barred by the statute of limitations. In criminal
case 1749 CR 2013, he was charged with indecent assault, indecent exposure,
corruption of a minor, endangering the welfare of minors, each of which possess a
two-year statute of limitations. (Doc. 2, p. 24). He argues that “each crime
contains an element requiring the prosecution to assert evidence that ‘negatives a
defense under the statute of limitations.’ (18 Pa.C.S.A. § 103 Definitions:
Elements of an offense).” {Id. at 25). It is his position that the limitations for each
of these four crimes expired in June of 2012, and that bringing them in July of
2013, violates due process of law and the ex postfacto clause. {Id.); (Docs. 30,
31).
He also asserts that the 2173 CR 2013 prosecution, in which he was charged
with two counts of indecent contact “occurring at some nebulous time, prior to July
of 1997,” were barred. (Doc. 2, p. 26). He avers that the charge of “Aggravated]
I[ndecent] Afssault] in 1997 had a limitations period of ‘5 years’ which expired in
2002 [Act 17 of 1996, amending 42 Pa.C.S.A. § 5552(a)]; thereby charging in
2013 was patently without authorization to do so.” {Id.); (Docs. 30, 31).
Procedurally, Corliss unsuccessfully challenged the statute of limitations in
numerous pre-trial and post-trial motions. (Docs. 2-2, pp. 8-10, 20-26, 57-59; Doc.
21-3, pp. 4-8; Doc. 21-13, pp. 5, 6, 8, 9; Doc. 21-17, pp. 17, 19, 21). In the
26

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 27 of 54

Omnibus Opinion Order entered on January 7, 2014, the trial court considered the
Counts lodged in 2173 CR 2013 pertaining to victim R.V. The court noted that the
incidents were alleged to have occurred between 1995 and 1998, and that the
Defendant conceded that the victim was bom in January 1986 and turned 18 in
2004. (Doc. 21-3, p. 4). The court then found that the charges were subject to the
exception set forth in 42 Pa.C.S.A. § 5552(c)(3), which states that “(3) Any sexual
offense committed against a minor who is less than 18 years of age at any time up
to the later period of limitations provided by law after the minor has reached 18
years of age or the date the minor reaches 50 years of age. As used in this
paragraph, the term ‘sexual offense’ means a crime under the following provisions
of Title 18 (relating to crimes and offenses): ... Section 3125 relating to aggravated
indecent assault. Section 3126 (relating to indecent assault) ... Section 4304
(relating to endangering the welfare of children). Section 6301 (relating to
corruption of minors).” (Doc. 21-3, p. 6). Further, with respect to Counts 1 and 2,
Aggravated Indecent Assault, the trial court found that the time limitation “was
extended for twelve (12) years after R.V. turned 18 under Sections 5552 (b.l) and
(c). This date would be January 2016. The Commonwealth commenced its
prosecution within this time frame so the time limitations were tolled.” {Id. at 6,
7). Consequently, the court denied the motion for dismissal of Counts 1 and 2 on
27

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 28 of 54

statute of limitations grounds.
Post-trial, the trial court revisited the timeliness of the prosecutions in both
cases in an October 7, 2016 Opinion and Order addressing a pro se motion for
extraordinary relief, and ruled as follows:
The Defendant next contends the statute of limitations bars the charges
and the conviction in case #2173 CR 2013. This issue has been ruled
upon many times pre-trial. The Defendant now asserts that some
instruction should have been given to the jury to determine the statute
of limitations and/or that the evidence was insufficient to show the
Commonwealth proved an exception to the statute of limitations. We
disagree. For the reasons stated in prior pre-trial orders of this Court,
the charges were not time barred and no further instructions were
required or necessary to be given to the jury. The Defendant is not
entitled to an acquittal based upon the statute of limitations defense.
The conduct complained of was the type that fell within the applicable
statute of limitations period in effect after the complainant turned 18 as
a matter of law. As previously ruled upon, the Commonwealth only
had to file the instant charges within twelve (12) years after the
complainant turned 18. We previously found that they had done so.

[In case #1949 CR 2013 (C.C.)], [t]he Defendant next alleges that the
statute of limitations for indecent assault, indecent exposure,
endangering the welfare of children and corruption of minors applies.
The Defendant asserts, as in case #2173 CR 2013, that the evidence
failed to negate a defense of the statute of limitations for these offenses.
This Court previously ruled on the statute of limitations defense several
times in pre-trial orders. The Defendant mistakenly believes that these
charges either had to be brought within two (2) years of the offense
dates, or within two (2) years after the complainant turns 18. As
previously cited in prior orders, the statute of limitations in these
matters does not run until (2) years after C.C. turns 18; such that the
Defendant can be charged and tried anytime between the offense date
28

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 29 of 54

and up until two (2) years after C.C. turns 18. C.C. has not yet turned
18. The Commonwealth had no duty to prove anything to the jury in
this regard. The Defendant’s motion will be denied.
(Doc. 21-13, pp. 5, 6, 8, 9).
Corliss’ statute of limitations argument was addressed by the trial court yet
again and rejected for the same reasons as in previous orders of court in an Opinion
and Order disposing of post-sentence motions. (Doc. 21-17, pp. 17, 19, 21). In
issuing its Statement pursuant to Pa.R.A.P. 1925(a), the court noted that the
December 15, 2016 Opinion and Order and prior Opinions and Orders entered
addressed, inter alia, the statute of limitations arguments.
He continued pursuit of the statute of limitations during the appeal of his
October 7, 2016 judgment of sentence posing the question of “[wjhether a
judgment of acquittal or an arrest of judgment must issue as to six crimes
convicted of when the jury did not render a decision as to the challenged element
of negating the statute of limitations.” (Doc 21-22, p. 3). He argued on appeal, as
he does here, that “[ujnder Pennsylvania law, the ‘Commonwealth is required to
prove as an element of every criminal offense that an applicable statute of
limitations did not bar prosecution.’ Com, v. Bethlehem. 570 A.2d 563, 1989;
Accord. 18 Pa. C.S.A. § 103. [Footnote 3: 18 § 103 Definitions, ‘Elements of an
offense.’ Such conduct or such attendant circumstances or such result of conduct
29

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 30 of 54

as:... (4) negatives a defense under the statute of limitations.’]” {Id. at 17).
The Superior Court considered the issue on appeal as follows:
A statute of limitations defense is properly raised prior to trial in an
omnibus motion to dismiss the charges. Commonwealth v. Corban
Corp., 909 A.2d 406, 411 (Pa.Super. 2006), affirmed, 957 A.2d 274
(Pa. 2008), citing Commonwealth v. Rossetti, 863 A.2d 1185, 1190
(Pa.Super. 2004), appeal denied, 878 A.2d 864 (Pa. 2005);
Commonwealth v. Groff, 548 A.2d 1237, 1244 (Pa.Super. 1988). “The
Commonwealth bears the burden to establish that a crime as charged
was committed within the applicable statute of limitations period.”
Corban Corp., 909 A.2d at 411, citing Groff, 548 A.2d at 1248. A
defendant must raise a statute of limitations defense pretrial; otherwise,
the defense is waived. Id. at 1245 n.8, citing Commonwealth v. Darush,
459 A.2d 727, 730 n.4 (Pa. 1983).
If the statute of limitations defense poses a question of law, the
judge may decide the issue pretrial or at an appropriate time during
trial. If the statute of limitations poses a question of fact, the judge
should not decide the question but should present the question for
jury consideration.
Groff, 548 A.2d at 1248, n.8. “Where the date of discovery of criminal
acts is unrebutted, the issue of whether the statute of limitations for
prosecution has run is a question of law for the trial judge.” Corban
Corp., 909 A.2d at 410, citing Commonwealth v. Hoffman, 398 A.2d
658, 661 (Pa.Super. 1979).
Upon a review of the record, we find that appellant properly raised a
statute of limitations defense when he filed a pro se amended omnibus
pretrial motion on January 21,2014, seeking dismissal of the following
charges due to the expiration of the statute of limitations: indecent
assault, indecent exposure, endangering the welfare of children, and
corruption of minors. Accordingly, appellant has sufficiently preserved
this issue for appellate review, and we shall review this issue on its
merits.
30

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 31 of 54

Appellant, citing 42 Pa.C.S.A. § 5552(a), avers that the Commonwealth
failed to initiate criminal proceedings against appellant within the
statutory two-year time period. Appellant’s reliance, however, is
misplaced. The Commonwealth charged appellant with four offenses
subject to the exceptions to the two-year statute of limitations found in
42 Pa.C.S.A. § 5552(c)(3). Subsection 5552(c)(3) provides, in relevant
part,
(3) Any sexual offense committed against a minor who is less than
18 years of age any time up to the later of the period of limitation
provided by law after the minor has reached 18 years of age or the
date the minor reaches 50 years of age....
42 Pa.C.S.A. § 5552(c)(3).
Appellant further avers that the Commonwealth failed to “allege any
statement in the Information as to any claimed tolling or an exception
to the statute of limitations ....” (Appellant's brief at 13.) Our supreme
court has held, however, that the Commonwealth is not required to
include any notice of tolling or exceptions to the statute of limitations
in the criminal information, so long as the defendant is not prejudiced.
Commonwealth v. Stockard, 413 A.2d 1088, 1092 (Pa. 1980).
Specifically, the court stated:
The fact that the Commonwealth did not allege in the [complaint]
that it would seek to toll the statute of limitations is of no
consequence [if] there is no prejudice to [defendant.] The
Commonwealth did inform [defendant] of the tolling of the statute
of limitations when the Commonwealth filed its answer to
[defendant's] motion to dismiss the complaint.... As long as a
defendant, some reasonable time before trial, is [apprised] that the
Commonwealth will seek to toll the statute of limitations, the due
process requirements of notice are met.
Id., quoted by Commonwealth v. Morrow, 682 A.2d 347, 349
(Pa.Super. 1996), appeal denied, 693 A.2d 587 (Pa. 1997). In Morrow,
similarly to the defendant in Stockard, the Commonwealth responded
to an omnibus pretrial motion seeking dismissal on the grounds of the
31

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 32 of 54

expiration of the statute of limitations with a written notice of intention
to toll the statute. Id. This court found that the defendant was not
prejudiced, as he was “adequately and timely informed of the
Commonwealth's intentions,” prior to trial.” Id. In Commonwealth v.
Russell, 938 A.2d 1082, 1088 (Pa.Super. 2007), appeal denied, 956
A.2d 434 (Pa. 2008), this court reaffirmed that the Commonwealth
satisfies the notice requirement so long as it notifies the defendant of
its intention to toll the statute of limitations at a reasonable time before
trial.
Here, appellant filed an amended omnibus pretrial motion on January
21, 2014. The Commonwealth subsequently filed a written notice of
tolling of the statute of limitations on February 24, 2014—over two
years before the start of trial on May 31, 2016. We, therefore, find that
the Commonwealth provided adequate written notice of its intent to toll
the statute of limitations within a reasonable time before trial.
Accordingly, appellant's first issue is without merit.
Commonwealth v. Corliss, 2017 WL 6196304, at *4-5.
Supreme Court precedent governing statutes of limitations recognizes that
“[i]n the first stage—before arrest or indictment, when the suspect remains at
liberty—statutes of limitations provide the primary protection against delay, with
the Due Process Clause as a safeguard against fundamentally unfair prosecutorial
conduct. United States v. Lovasco, 431 U.S. 783, 789, 97 S.Ct. 2044, 52 L.Ed.2d
752 (1977); see id., at 795, n. 17, 97 S.Ct. 2044 (Due Process Clause may be
violated, for instance, by prosecutorial delay that is “tactical” or “reckless”
(internal quotation marks omitted)).” Betterman v. Montana, — U.S. —, 136 S.
Ct. 1609, 1613 (2016). “The purpose of a statute of limitations is to limit exposure
32

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 33 of 54

to criminal prosecution to a certain fixed period of time following the occurrence
of those acts the legislature has decided to punish by criminal sanctions. Such a
limitation is designed to protect individuals from having to defend themselves
against charges when the basic facts may have become obscured by the passage of
time and to minimize the danger of official punishment because of acts in the fardistant past. Such a time limit may also have the salutary effect of encouraging law
enforcement officials promptly to investigate suspected criminal activity. For these
reasons and others, we have stated before ‘the principle that criminal limitations
statutes are ‘to be liberally interpreted in favor of repose,’ United States v.
Scharton, 285 U.S. 518, 522, 52 S.Ct. 416, 417, 76 L.Ed. 917 (1932).’ United
States v. Habig, 390 U.S. 222, 227, 88 S.Ct. 926, 929, 19 L.Ed.2d 1055 (1968).”
Toussie v. United States, 397 U.S. 112, 114-15 (1970). Significantly, the Supreme
Court has determined that “[a] statute-of-limitations defense does not call the
criminality of the defendant’s conduct into question, but rather reflects a policy
judgment by the legislature that the lapse of time may render criminal acts illsuited for prosecution. See, e.g., Toussie v. United States, 397 U.S. 112, 114-115,
90 S.Ct. 858, 25 L.Ed.2d 156 (1970).” Smith v. United States, 568 U.S. 106, 11012 (2013).
Corliss asserts that the state court erred in failing to consider the statute of
33

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 34 of 54

limitations as an element of the offenses to be presented to the jury. As noted
supra, a statute of limitations defense does not call the criminality of the
defendant’s conduct into question, but rather reflects a policy judgment by the
legislature that the lapse of time may render criminal acts ill-suited for prosecution.
Consequently, we find that the state courts’ conclusions concerning whether the
offenses were within statute of limitations issue were properly decided by the trial
court, and not presented to the jury for consideration, are not contrary to, or an
unreasonable application of, governing Supreme Court precedent.
He also contends that state court violated Alleyne v. United States, 570 U.S.
99, 107-08 (2013) in failing to present the statute of limitations to the jury. The
Alleyne Court opined as follows:
The touchstone for determining whether a fact must be found by a jury
beyond a reasonable doubt is whether the fact constitutes an “element”
or “ingredient” of the charged offense. United States v. O'Brien, 560
U.S. 218,
, 130 S.Ct. 2169, 176 L.Ed.2d 979 (2010); Apprendi,
supra, at 483, n. 10, 120 S.Ct. 2348; J. Archbold, Pleading and
Evidence in Criminal Cases 52 (5th Am. ed. 1846) (hereinafter
Archbold). In Apprendi, we held that a fact is by definition an element
of the offense and must be submitted to the jury if it increases the
punishment above what is otherwise legally prescribed. 530 U.S., at
483, n. 10, 120 S.Ct. 2348. While Harris declined to extend this
principle to facts increasing mandatory minimum sentences,
Apprendi’s definition of “elements” necessarily includes not only facts
that increase the ceiling, but also those that increase the floor. Both
kinds of facts alter the prescribed range of sentences to which a
defendant is exposed and do so in a manner that aggravates the
punishment. 530 U.S., at 483, n. 10, 120 S.Ct. 2348; Harris, supra, at
34

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 35 of 54

579, 122 S.Ct. 2406 (THOMAS, J., dissenting). Facts that increase the
mandatory minimum sentence are therefore elements and must be
submitted to the jury and found beyond a reasonable doubt.
Alleyne v. United States, 570 U.S. 99, 107-08, 133 S. Ct. 2151, 2158, 186 L. Ed.
2d 314 (2013).
Corliss’ argument lacks merit. The statute of limitations is not a fact that
increases the punishment above what is otherwise legally prescribed. As such, it
does not constitute an element that must be submitted to the jury and found beyond
a reasonable doubt.
2.

Grounds 3. 4. and 5

In Grounds 3, 4, and 5, Corliss challenges the sufficiency of the evidence
adduced in support of the IDSI convictions, primarily focusing on the sexual
intercourse component of the convictions. He also contends that the trial court
“change[d] the evidence” to include penetration to permit instructing the jury on
sexual intercourse.3
The “clearly established Federal law” governing sufficiency of the evidence
claims is set forth in the United States Supreme Court’s decision in Jackson v.
Virginia, 443 U.S. 307 (1979). Under Jackson, evidence is sufficient to support a

3 In the state court proceedings, Corliss challenged the sufficiency of the evidence relating to the
IDSI and incest convictions. Here, he limits his challenge to whether the evidence is sufficient to
support the IDSI conviction.
35

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 36 of 54

conviction if, “after reviewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the
crime beyond a reasonable doubt.” Id. at 319. “Jackson leaves juries broad
discretion in deciding what inferences to draw from the evidence presented at trial,
requiring only that jurors ‘draw reasonable inferences from basic facts to ultimate
Coleman v. Johnson, 566 U.S. 650, 651 (2012) (quoting Jackson, 443 U.S.

facts.
at 319).

The sufficiency of the evidence supporting the IDSI convictions was raised
on direct appeal. The Superior Court set forth the following standard of review:
In reviewing the sufficiency of the evidence, we view all evidence
admitted at trial in the light most favorable to the Commonwealth, as
verdict winner, to see whether there is sufficient evidence to enable [the
fact finder] to find every element of the crime beyond a reasonable
doubt. This standard is equally applicable to cases where the evidence
is circumstantial rather than direct so long as the combination of the
evidence links the accused to the crime beyond a reasonable doubt.
Although a conviction must be based on “more than mere suspicion or
conjecture, the Commonwealth need not establish guilt to a
mathematical certainty.”
Moreover, when reviewing the sufficiency of the evidence, the Court
may not substitute its judgment for that of the fact finder; if the record
contains support for the convictions, they may not be disturbed.
Commonwealth v. Stokes, 78 A.3d 644, 649 (Pa.Super. 2013) (citations
omitted), appeal denied, 89 A.3d 661 (Pa. 2014). The Commonwealth
may satisfy its burden of proving a defendant's guilt beyond a
reasonable doubt by using wholly circumstantial evidence.
Commonwealth v. Diggs, 949 A.2d 873, 877 (Pa. 2008), cert, denied,
36

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 37 of 54

556 U.S. 1106 (2009).
This court has also previously stated that the uncorroborated testimony
of a victim of a sexually based offense is sufficient to uphold a
conviction, so long as the testimony is believed by the trier-of-fact.
Commonwealth v. Trippett, 932 A.2d 188,194 (Pa.Super. 2007), citing
Commonwealth v. Charlton, 902 A.2d 554, 562 (Pa.Super. 2006). A
fact-finder is free to believe all, part, or none of the evidence, including
uncorroborated testimony, presented. Commonwealth v. Mosley, 114
A.3d 1072, 1087 (Pa.Super. 2015) (citations omitted), appeal denied,
166 A.3d 1215 (Pa. 2017). Therefore, how much credibility and weight
is given to the uncorroborated testimony is fully within the exclusive
purview of the fact-finder.
Commonwealth v. Corliss, No. 108 EDA 2017, 2017 WL 6196304, at *5 (Pa.
Super. Ct. Dec. 8, 2017). Clearly, the Superior Court applied the Pennsylvania
equivalent of the Jackson standard. See also Evans v. Court of Common Pleas,
Delaware Cnty., 959 F.2d 1227, 1233 (3d Cir. 1992) (noting that the test for
sufficiency of the evidence is the same under both Pennsylvania and federal law).
Because the Superior Court applied the correct legal standard, its adjudication
satisfies review under the “contrary to” clause of § 2254(d)(1). See, e.g., Williams,
529 U.S. at 405-06.
We next consider whether the trial court’s decision amounted to an
“unreasonable application” of Jackson.
Jackson claims face a high bar in federal habeas proceedings because
they are subject to two layers of judicial deference. First, on direct
appeal, “it is the responsibility of the jury ... to decide what conclusions
should be drawn from evidence admitted at trial. A reviewing court may
37

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 38 of 54

set aside the [trial court’s] verdict on the ground of insufficient evidence
only if no rational trier of fact could have agreed with the [trial court].”
Cavazos v. Smith, 565 U.S. 1 (2011). And second, on habeas review, “a
federal court may not overturn a state court decision rejecting a
sufficiency of the evidence challenge simply because the federal court
disagrees with the state court. The federal court instead may do so only
if the state court decision was ‘objectively unreasonable.’ ” Ibid.
(quoting Renico v. Lett, 559 U.S.766 (2010)).
[T]he only question under Jackson is whether [the state court’s] finding
was so insupportable as to fall below the threshold of bare rationality.
The state court of last review did not think so, and that determination
in turn is entitled to considerable deference under AEDPA, 28 U.S.C.
§ 2254(d).
Coleman, 566 U.S. at 651, 656.
Corliss’ sufficiency of the evidence claims mirror those raised on appeal.
(Docs. 21-22, 21-24). He breaks the claims into three arguments. Initially he
argues that he “was charged with crimes that possess an element of ‘sexual
intercourse’ though no evidence exists to support same.” (Doc. 2, p. 54). He next
contends that the state court erred in failing to dismiss the IDSI charges because
“the Pennsylvania General assembly and Pennsylvania Supreme Court anticipates
[sic] evidence of penile penetration of a vagina to support the element of‘sexual
intercourse;’ however.. .no testimony of record exists to infer, suggest or point
directly to what can be construed as penile penetration of a vagina.” (Id. at 62).
And he asserts that, in contravention of the definition of sexual intercourse, “over
objection, as no claims of penile penetration of a vagina existed, the court sua
38

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 39 of 54

sponte directed the jury that ‘some form of oral contact with the genitalia of a
female victim is all that is required.’” {Id. at 69). He focuses on various
Pennsylvania General Assembly definitions contained in other statutes in support
of his arguments that the convictions were unconstitutionally obtained based on a
lack of evidentiary support. {Id. at 56, 57, 60, 63, 64, 69, 71, 72, 79).
In considering the claims, the Superior Court opined as follows:
This court has also previously stated that the uncorroborated testimony
of a victim of a sexually based offense is sufficient to uphold a
conviction, so long as the testimony is believed by the trier-of-fact.
Commonwealth v. Trippett, 932 A.2d 188, 194 (Pa.Super. 2007), citing
Commonwealth v. Charlton, 902 A.2d 554, 562 (Pa.Super. 2006). A
fact-finder is free to believe all, part, or none of the evidence, including
uncorroborated testimony, presented. Commonwealth v. Mosley, 114
A.3d 1072, 1087 (Pa.Super. 2015) (citations omitted), appeal denied,
166 A.3d 1215 (Pa. 2017). Therefore, how much credibility and weight
is given to the uncorroborated testimony is fully within the exclusive
purview of the fact-finder.
In the instant case, after reviewing the evidence presented, cast in the
light most favorable to the Commonwealth, as verdict winner, we find
that the evidence is sufficient to warrant the jury’s convictions for
IDSI....
IDSI is defined, in relevant part, as:
(b) Involuntary deviate sexual intercourse with a child.—A person
commits involuntary deviate sexual intercourse with a child, a
felony of the first degree, when the person engages in deviate
sexual intercourse with a complainant who is less than 13 years of
age.
18 Pa.C.S.A. § 3123(b). The General Assembly defined “deviate sexual
39

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 40 of 54

intercourse” as:
[sjexual intercourse per os or per anus between human beings and
any form of sexual intercourse with an animal. The term also
includes penetration, however slight, of the genitals or anus of
another person with a foreign object for any purpose other than
good faith medical, hygienic or law enforcement procedures.
18 Pa.C.S.A. § 3101; see also Commonwealth v. Kelley, 801 A.2d 551,
555 (Pa. 2002), citing Commonwealth v. Lee, 638 A.2d 1006 (Pa.Super.
1994), appeal denied, 647 A.2d 898 (Pa. 1994) (interpreting sexual
intercourse and deviate sexual intercourse to include acts of oral and
anal sex).
During the trial, C.C. testified that she was bom on February 16, 1999,
and was 17 years old at the time of trial. (Notes of testimony, 5/31/16
at 88.) At the time that appellant lived with C.C., C.C. was 10 years old.
(Id. at 89.) C.C. also testified that appellant touched her chest and
vagina, exposed his penis, tried to place his penis in her mouth, and put
his mouth directly on her vagina. (Id. at 94-95.) We find that this
testimony supports the jury’s guilty verdict for IDSI. See generally
Commonwealth v. Mawhinney, 915 A.2d 107, 111 (Pa.Super. 2006),
appeal denied, 932 A.2d 1287 (Pa. 2007) (finding that the victim’s
testimony describing elements of IDSI is sufficient evidence to warrant
conviction).
Commonwealth v. Corliss, 2017 WL 6196304, at *5, 6 (Pa. Super. Ct. Dec. 8,
2017).
In asserting that there was insufficient evidence to support the IDSI
convictions, Corliss fixates on Pennsylvania’s definition of “sexual intercourse”
and other definitions contained in the sexual abuse of children statute. He argues
that “[ajbent the requisite element of penile penetration of a vagina, no court
40

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 41 of 54

possessed jurisdiction to try these fatally pled allegations” and there was no
support for the trial judge to charge on penetration and further define penetration
for the jury. (Doc. 2, p. 58, 65. 70,). These arguments ignore the definition of
deviate sexual intercourse included in the state court opinions, which plainly
includes “sexual intercourse per os” and “penetration, however slight, of the
genitals... of another person with a foreign object for any purpose other than good
faith medical, hygienic or law enforcement procedures.” Commonwealth v.
Corliss, 2017 WL 6196304, at *5, 6. See also, Doc. 21-13, pp. 9-11; Doc. 21-17,
pp. 21-25.
Importantly, “28 U.S.C. § 2254(d) gives federal habeas courts no license to
redetermine credibility of witnesses whose demeanor has been observed by the
state trial court, but not by them.” Marshall v. Lonberger, 459 U.S. 422, 434
(1983). Indeed, under the Jackson standard, “the assessment of the credibility of
witnesses is generally beyond the scope of review.” Schlup v. Delo, 513 U.S. 298,
330 (1995). The proper question is not whether the witnesses were credible, but
“whether there is sufficient evidence which, if credited, could support the
conviction.” Id. Further, Coleman cautioned courts that Jackson does not permit
“imping[ing] on the jury’s role as factfinder” through “fine-grained factual
parsing.” Coleman, 566 U.S. at 655. Rather, “Jackson leaves juries broad
41

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 42 of 54

discretion in deciding what inferences to draw from the evidence presented at trial,
requiring only that jurors ‘draw reasonable inferences from basic facts to ultimate
facts.’ [Jackson, 443 U.S.] at 319.” Id. We have no grounds on which to
conclude that the court’s reliance on C.C’s testimony in upholding the IDSI
convictions “was so insupportable as to fall below the threshold of bare
rationality.” Coleman, 566 U.S. at 656.
Taking into consideration the testimony of C.C., and viewing the evidence in
the light most favorable to the prosecution, the Court finds that the state court’s
conclusion that there was sufficient evidence at trial to establish the necessary
elements for IDSI, is not objectively unreasonable. There simply is no possibility
that fair-minded jurist could find that this determination conflicts with applicable
Supreme Court precedent. Nor, based on review of the state court evidence, is it
an unreasonable determination of the facts in light of the evidence presented.
3.

Grounds 6 and 7

The arguments in Grounds 6 and 7 focus on the conduct of the prosecutor,
Mr. Rakaczewski. The relevant Supreme Court precedent states:
[T]he touchstone of due process analysis in cases of alleged
prosecutorial misconduct is the fairness of the trial, not the culpability
of the prosecutor. In Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194,
10 L.Ed.2d 215 (1963), for example, the prosecutor failed to disclose
an admission by a participant in the murder which corroborated the
defendant’s version of the crime. The Court held that a prosecutor’s
42

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 43 of 54

suppression of requested evidence “violates due process where the
evidence is material either to guilt or to punishment, irrespective of the
good faith or bad faith of the prosecution.” Id., at 87, 83 S.Ct., at 1196.
Applying this standard, the Court found the undisclosed admission to
be relevant to punishment and thus ordered that the defendant be
resentenced. Since the admission was not material to guilt, however,
the Court concluded that the trial itself complied with the requirements
of due process despite the prosecutor’s wrongful suppression.
This principle was reaffirmed in United States v. Agurs, 427 U.S.
97, 96 S.Ct. 2392, 49 L.Ed.2d 342 (1976). There, we held that a
prosecutor must disclose unrequested evidence which would create a
reasonable doubt of guilt that did not otherwise exist. Consistent with
Brady, we focused not upon the prosecutor’s failure to disclose, but
upon the effect of nondisclosure on the trial:
“Nor do we believe the constitutional obligation [to disclose
unrequested information] is measured by the moral culpability, or
willfulness, of the prosecutor. If evidence highly probative of
innocence is in his file, he should be presumed to recognize its
significance even if he has actually overlooked it. Conversely, if
evidence actually has no probative significance at all, no purpose
would be served by requiring a new trial simply because an inept
prosecutor incorrectly believed he was suppressing a fact that
would be vital to the defense. If the suppression of the evidence
results in constitutional error, it is because of the character of the
evidence, not the character of the prosecutor.” 427 U.S., at 110,
96 S.Ct., at 2400 (footnote and citation omitted).
Smith v. Phillips, 455 U.S. 209, 219-20 (1982). Prosecutorial misconduct alone
does not require a new trial. Id. at 220.
a.

Ground 6

In his Sixth ground, Corliss seeks relief on the ground that the prosecutor
suborned peijury from D.B.. (Doc. 2, p. 89). He raised the same issue in his state
43

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 44 of 54

court appeal contending that “the Commonwealth suborned perjury by presenting
testimony from D.B. pertaining to encounters with appellant in which appellant
was acquitted of charges brought by the Commonwealth.” Commonwealth v.
Corliss, 2017 WL 6196304, at *8; (Doc. 21-22, p. 3). In state court and here, he
relies “on the fact that the 1998 jury, while convicting him of two counts of
statutory sexual assault and one count each of aggravated indecent assault and
corruption of minors, also acquitted him of one count of statutory sexual assault,
two counts of aggravated indecent assault, and three counts each of indecent
assault and corruption of minors. [Corliss] accordingly, claims that ‘an alibi
witness rendered [D.B.’s] claims patently false as that jury rejected sixty-six
percent (66%) of her claims and properly acquitted [appellant] thereof...’
(Appellant's brief at 30.)” Id. at *8; Doc. 2, pp. 91, 92.
In considering the issue, the Superior Court stated the following:
We disagree with appellant’s reliance on the 1998 jury’s verdict. This
court’s decision in Commonwealth v. Ardinger, 839 A.2d 1143
(Pa.Super. 2003), is particularly instructive. In Ardinger, the
Commonwealth sought to introduce testimony from an alleged victim
and the victim’s mother in an attempt to establish evidence of a
common plan pursuant to Pa.R.E. 404(b)(2). Id. at 1144. Both the
victim and his mother were to provide testimony of an incident that
occurred in Maryland, for which the defendant was charged, but not
convicted, at the time of the Pennsylvania proceedings. Id. This court
reiterated that “ ‘Pa. R. Evid. 404(b) is not limited to evidence of crimes
that have been proven beyond a reasonable doubt in court. It
encompasses both prior crimes and prior wrongs and acts, the latter of
44

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 45 of 54

which, by their nature, often lack “definitive proof. 5 55 Id., quoting
Commonwealth v. Lockcuff, 813 A.2d 857, 861 (Pa.Super. 2002),
appeal denied, 825 A.2d 638 (Pa. 2003).
The Ardinger court further explained that it was up to the jury sitting
for Mr. Ardinger’s trial to determine the credibility of the victim and
his mother as they testified regarding the charges pending in Maryland.
Ardinger, 839 A.2d at 1146. Additionally, this court noted that both
witnesses would be subject to cross-examination that could “include
questions which will enable the jury to know that the charges against
[Mr. Ardinger] in Maryland have not yet resulted in a conviction.” Id.
In the instant appeal, it was within the jury’s sole purview to determine
the credibility of D.B.’s testimony. Likewise, appellant’s trial counsel
had the opportunity on cross-examination to include questions that
would enable the jury to know that appellant was not convicted of all
charges against him at the 1998 trial.
Additionally, we disagree with appellant’s claim that his acquittal of
several charges in 1998 is tantamount to the jury finding D.B.’s
testimony to not be credible. This court has previously cautioned that
an acquittal cannot be interpreted as a specific finding in relation to
some of the evidence presented; and acquittal may represent the jury’s
exercise of its historic power of lenity; and a contrary rule would
abrogate the criminal procedural rules that empower a judge to
determine all questions of law and fact as to summary offenses.
Commonwealth v. Barger, 956 A.2d 458, 461 (Pa.Super. 2008) (en
banc), appeal denied, 980 A.2d 109 (Pa. 2009), citing Commonwealth
v. Wharton, 594 A.2d 696, 698-699 (Pa.Super. 1991), Commonwealth
v. Yachymiak, 505 A.2d 1024, 1026-1027 (Pa.Super. 1986).
Therefore, we find that determining the credibility of D.B.’s bad acts
testimony was within the sole purview of the jury sitting in appellant’s
2016 trial, and accordingly, appellant’s third issue is without merit.
Commonwealth v. Corliss, 2017 WL 6196304, at *8-9.
As stated supra, the credibility of witnesses whose demeanor has been
45

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 46 of 54

observed by the state trial court, and not by this court, is beyond our scope of
review. Marshall, 459 U.S. at 434; Schlup, 513 U.S. at 330. Further, caselaw
prohibits this court from intruding on the jury’s role as factfinder as they must be
afforded broad discretion in deciding what inferences to draw from the evidence
presented at trial and simply requires that jurors draw reasonable inferences from
basic facts to ultimate facts. Coleman, 566 U.S. at 655.
It is clear that the Superior Court properly focused on the fairness of the trial
and rejected the claim based upon a finding that it was the sole role of the jury to
determine the credibility of D.B. This finding is in accord with, and a reasonable
application of, governing Supreme Court precedent. It is also an objectively
reasonable determination of the facts in light of the evidence presented to the state
court.
b.

Ground 7

Corliss next argues that “Rakaczewski refused to put into evidence emails
and other known evidence that challenged C.C’s credibility and proves that no
untoward conduct occurred.” (Doc. 2, p. 112). He argued in state court, as he does
here, that the prosecutor “deliberately withheld from Petitioner’s jury facts he
knew of that challenge C.C’s claims, as being recent fabrications premised on a
motive to lie for her mother, Petitioner’s disgruntled ex-wife” and includes a litany
46

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 47 of 54

of facts which he contends were “known to Rakaczewski but were deliberately
omitted.” (Id. at 112-116). He asserts that Rakaczewski’s omissions amounted to
a corruption of the truth-seeking function of the trial process in violation of Brady
noting that “[i]ndeed, of all three Bradv categories, the Supreme Court made the
test for the first the strictest in an effort to protect defendants against the most
egregious Bradv error - a prosecutor’s knowing use of perjured testimony.” (Id. at
117). He contends that the prosecutor failed to provide the defense with any
impeachment evidence prior to trial. (Id. at 118).
On direct appeal, the Superior Court recognized that, although Corliss
“alleges prosecutorial misconduct in that the Commonwealth deliberately omitted
exculpatory evidence and ‘known credibility challenges’ as to C.C.’s testimony[,]”
“[i]n essence, [he] is alleging that the Commonwealth committed a Brady
violation. See Brady v. Maryland, 373 U.S. 83 (1963).” Commonwealth v. Corliss,
2017 WL 6196304, at *9.
Under Brady, the State violates a defendant’s right to due process if it
withholds evidence that is favorable to the defense and material to the defendant’s
guilt or punishment. Brady, 373 U.S. at 87.

u c

[E]vidence is ‘material’ within the

meaning of Brady when there is a reasonable probability that, had the evidence
been disclosed, the result of the proceeding would have been different.’ Cone v.
47

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 48 of 54

Bell, 556 U.S. 449, 469-470, 129 S.Ct. 1769, 173 L.Ed.2d 701 (2009). A
reasonable probability does not mean that the defendant ‘would more likely than
not have received a different verdict with the evidence,’ only that the likelihood of
a different result is great enough to ‘undermine[ ] confidence in the outcome of the
trial.’ Kyles v. Whitley, 514 U.S. 419, 434, 115 S.Ct. 1555, 131 L.Ed.2d490
(1995) (internal quotation marks omitted).” Smith v. Cain, 565 U.S. 73, 75-76
(2012). “Impeachment evidence ..., as well as exculpatory evidence, falls within
the Brady rule.” United States v. Bagley, 473 U.S. 667, 676 (1985). A three-part
test is employed in determining whether a Brady violation has occurred: (1) the
evidence at issue must be favorable to the defendant, either because it is
exculpatory or impeaching in nature; (2) the evidence must have been suppressed
by the state either willfully or inadvertently; and (3) prejudice must result from this
suppression. Dennis v. Sec’yDept. of Corr., 834 F.3d 263, 284-85 (3d Cir. 2016)
(en banc)\ Banks v. Dretke, 540 U.S. 668, 691 (2004)(citations omitted). Brady
does not compel the government “ ‘to furnish a defendant with information which
he already has or, with any reasonable diligence, he can obtain himself.

5

55

Starusko, 729 F.2d at 262 (quoting United States v. Campagnuolo, 592 F.2d 852,
861 (5th Cir. 1979)); see also United States v. Dansker, 565 F.2d 1262, 1265 (3d
Cir. 1977).” United States v. Pelullo, 399 F.3d 197, 213 (3d Cir. 2005), as
48

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 49 of 54

amended (Mar. 8, 2005).
The Superior Court set forth the following standards of review:
[Our supreme court] summarized the law in Brady in Commonwealth
v. Strong, 761 A.2d 1167 (Pa. 2000):
In Brady, the United States Supreme Court declared that due
process is offended when the prosecution withholds evidence
favorable to the accused.... The Brady court established the
obligation of the prosecution to respond affirmatively to a request
for production of exculpatory evidence with all evidence material
to the guilt or punishment of the accused. Where evidence material
to the guilt or punishment of the accused is withheld, irrespective
of the good or bad faith of the prosecutor, a violation of due
process has occurred.
Id. at 1171 (citations and footnote omitted).
In United States v. Bagley, 473 U.S. 667, 677 (1985), the Supreme
Court concluded that “impeachment evidence ... as well as exculpatory
evidence, falls within the Brady rule,” and held that, regardless of
request, favorable evidence is material, and constitutional error results
from its suppression by the government “if there is reasonable
probability that, had the evidence been disclosed to the defense, the
result of the proceeding would have been different.” Id. at 682. See
Strong, supra at 1771 (“As Brady and its progeny dictate, when the
failure of the prosecution to produce material evidence raises a
reasonable probability that the result of the trial would have been
different if the evidence had been produced, due process has been
violated and a new trial is warranted.” (citing Bagley)); see also
Commonwealth v. Moose, 602 A.2d 1265, 1272 (Pa. 1992) (“When the
reliability of a witness may be determinative of guilt or innocence, non­
disclosure of evidence affecting that witness’s credibility runs afoul of
Brady’s disclosure requirement.”).
In determining whether a reasonable probability of a different outcome
has been demonstrated, “[t]he question is not whether the defendant
49

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 50 of 54

would more likely than not have received a different verdict with the
evidence, but whether in its absence he received a fair trial, understood
as a trial resulting in a verdict worthy of confidence.” Kyles v. Whitley,
514 U.S. 419, 434 (1995). A “reasonable probability” of a different
result is shown when the government’s suppression of evidence
“undermines confidence in the outcome of the trial.” Bagley, supra at
678. The United States Supreme Court has made clear that Bagley’s
materiality standard is not a sufficiency of the evidence test. Kyles,
supra at 434. A Brady violation is established “by showing that the
favorable evidence could reasonably be taken to put the whole case in
such a different light as to undermine confidence in the verdict.” Kyles,
supra at 435. Importantly, “[t]he mere possibility that an item of
undisclosed information might have helped the defense, or might have
affected the outcome of the trial, does not establish materiality in the
constitutional sense. Commonwealth v. McGill, 832 A.2d 1014, 1019
(Pa. 2003). “[I]n order to be entitled to a new trial for failure to disclose
evidence affecting a witnesses] credibility, the defendant must
demonstrate the reliability of the witness may well be determinative of
his guilt or innocence.” Commonwealth v. Johnson, 727 A.2d 1089,
1094 (Pa. 1999). In assessing the significance of the evidence withheld,
a reviewing court must bear in mind that not every item of the
prosecution’s case would necessarily have been directly undercut had
the Brady evidence been disclosed. Kyles, supra at 451.
Commonwealth v. Weiss, 986 A.2d 808, 814-815 (Pa. 2009) (citations
reformatted).
Brady, however, does not relieve a defendant of his duty to perform due
diligence and conduct reasonable investigation in his own defense.
Indeed, our supreme court has stated that, “[i]t is well established that
‘no Brady violation occurs where the parties had equal access to the
information or if the defendant knew or could have uncovered such
evidence with reasonable diligence.’” Commonwealth v. Spotz, 896
A.2d 1191, 1248 (Pa. 2006), citing Commonwealth v. Morris, 822 A.2d
684, 696 (Pa. 2003).
Commonwealth v. Corliss, 2017 WL 6196304, at *9-10. These standards of
50

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 51 of 54

review wholly comport with governing Supreme Court precedent.
The Superior court then analyzed the claim as follows:
Appellant provides the following litany of evidence that he avers was
improperly withheld by the Commonwealth:
a. [Appellant] resided with C.C. from August 2008 until June 10,2010.
Yet, from August 2008 until July of 2013 no claim of indecent assault
or inappropriate sexual conduct is made to any person whatsoever.
b. After separation from C.C.’s mother, [C.T.], in June of 2010, a
number of legal filings were made in custody and for a protection from
abuse order that was abandoned.
c. When pressed at the preliminary hearing C.C. admitted: “Well, he
did ignore me. Like, mostly, he ignored me in the beginning, but toward
the end he just ignored everyone.” [N.T. 7/30/13 at 19.]
d. C.C.’s mother [C.T.] made numerous fraudulent claims in Protection
from Abuse petitions, two of three filings were withdrawn.
e. C.C.’s mother [C.T.] had a pattern of non-compliance with
mandatory notice to the custody court regarding her living
arrangements, location and schooling of C.C. and then kidnapped C.C.
to Hawaii.
f. Ultimately, [C.T.]’s fraud in support was revealed, and no Judge,
Higgins vacated a support order, in [appellant's] favor, when asked why
she refused to appear at support master hearings, she lied, claiming C.C.
was sick those days.
g. Only when [appellant] moved to verify [C.T.]’s fraud to Judge
Higgins did the lies get advanced of inappropriate conduct by
[appellant], in July of 2013.
h. Judge Higgins’ support order aptly reflects [C.T.]’s lie of C.C. being
home sick, upon subpoena, evidence from C.C.'s school attendance
51

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 52 of 54

verifies that [C.T.] lied.
i. While awaiting trial, [C.T.] had kidnapped C.C. and fled to Hawaii,
when [appellant] petitioned the custody court over this, [ADA]
Rakaczewski sought free legal representation for her, rather than
properly prosecute her or ensure the safety of the child.
j. In the affidavit of probable cause C.C.’s story is that [appellant’s]
penis does not enter her mouth, a claim she repeats on interview at the
child advocacy center and at the preliminary hearing; however, at trial
she changes her story and [ADA] Rakaczewski did nothing to inform
the jury of C.C.’s prior claims.
Appellant’s brief at 48-50 (citations omitted).
Appellant fails to enumerate any evidence that the Commonwealth
improperly suppressed to which he did not have equal access and/or
could have obtained by exercising reasonable diligence. Indeed, in
several of the items listed above, appellant avers that the
Commonwealth improperly suppressed information that was obtainable
from the transcript of appellant’s preliminary hearing. Upon an exercise
of reasonable diligence, appellant’s trial counsel could have easily
confronted C.C. with any inconsistencies found in the preliminary
hearing transcript.
Appellant also avers that C.T. and C.C. sent him letters and e-mails,
which were improperly suppressed by the Commonwealth. Appellant,
as the recipient of the letters and e-mails in question, had equal access
to these documents, and his trial counsel could have used these
documents on cross-examination.
Finally, appellant avers that the Commonwealth improperly withheld
filings from appellant's litigation with C.T. pertaining to custody of
C.C. As a party to that litigation, appellant would have been served with
any and all filings from C.T., and accordingly would have had access
to those documents for impeachment purposes during trial.
Commonwealth v. Corliss, 2017 WL 6196304, at *10-11. It is evident that the
52

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 53 of 54

state court reasonably applied the clearly established Supreme Court precedent
governing Brady claims.
Based on the above, we conclude that the state court’s decision was neither
contrary to, nor an unreasonable application of, clearly established federal law as
determined by the Supreme Court and that no federal relief is warranted.
V.

CERTIFICATE OF APPEALABILTY
Pursuant to 28 U.S.C. § 2253(c), unless a circuit justice or judge issues a

certificate of appealability (“COA”), an appeal may not be taken from a final order
in a proceeding under 28 U.S.C. § 2254. A COA may issue only if the applicant
has made a substantial showing of the denial of a constitutional right. 28 U.S.C. §
2253(c)(2). “A petitioner satisfies this standard by demonstrating that jurists of
reason could disagree with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El, 537 U.S. 322. Corliss fails to
demonstrate that a COA should issue.
The denial of a certificate of appealability does not prevent him from
appealing the order denying his petition so long as he seeks, and obtains, a
certificate of appealability from the Third Circuit Court of Appeals. See FED. R.
APP. P. 22(b)(1).
53

Case l:18-cv-02192-JEJ-EBC Document 44 Filed 08/17/20 Page 54 of 54

VI.

CONCLUSION
For the reasons set forth above, the petition for writ of habeas corpus

pursuant to 28 U.S.C. § 2254 will be denied.
A separate Order shall issue.

54

Case l:18-cv-02192-JEJ-EBC Document 45 Filed 08/17/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
JUSTIN M. CORLISS,
Petitioner,
l:18-cv-2192
v.

Hon. John E. Jones III
THOMAS MCGINLEY, WARDEN,
SCI COAL TOWNSHIP,
Respondent.
ORDER
August 17,2020
NOW THEREFORE, upon consideration of the petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2254, and in accordance with the Court’s
Memorandum of the same date, it is hereby ORDERED as follows:
1.

The petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254 is
DENIED.

2.

There is no basis for the issuance of a certificate of appealability. See
R. Governing § 2254 Cases R. 11(a) (stating that “[t]he district
court must issue or deny a certificate of appealability when it enters a
final order adverse to the applicant”).

3.

The Clerk of Court is directed to CLOSE this case.

s/ John E. Jones III
John E. Jones III, Chief Judge
United States District Court
Middle District of Pennsylvania

APPENDIX D

J. S47044/17
NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.
No. 108 EDA 2017

JUSTIN CORLISS,
Appellant

Appeal from the Judgment of Sentence, October 7, 2016,
in the Court of Common Pleas of Monroe County
Criminal Division at Nos. CP-45-CR-0001749-2013,
CP-45-CR-0002173-2013
BEFORE: LAZARUS, J., MOULTON, J., AND FORD ELLIOTT, P.J.E.
MEMORANDUM BY FORD ELLIOTT, P.J.E.:

FILED DECEMBER 08, 2017

Appellant, Justin Corliss appeals, pro se, from the October 7, 2016
judgment of sentence in the Court of Common Pleas of Monroe County.
After careful review, we affirm.
A previous panel of this court recited the following factual history:
[Appellant] operated a pet store in Monroe County.
In 1993, [appellant] commenced a romantic
relationship with his coworker, K.V.
Shortly
thereafter, [appellant] moved in the residence K.V.
shared with her minor daughter, R.V. In 1995, when
R.V. was approximately nine years old, [appellant]
began to molest R.V. At first, [appellant] would
tickle R.V. when they played together. [Appellant's]
behavior escalated, however, and he began placing
his hands down R.V.'s pants. [Appellant] digitally
penetrated R.V. on multiple occasions between 1995
and 1997. The abuse occurred at K.V.'s residence,
often_while_K.V_was_in_another_room.__ On_one.
occasion, [appellant] inappropriately touched R.V.

J. S47044/17
during a car trip to New York, The molestation
continued until 1997, when [appellant] moved out of
K.V.'s residence. R.V. did not immediately report the
abuse.
In 1996, fourteen-year old [D.B.1] began to work at
[appellant's] pet store. [D.B.]'s father was a regular
customer at the pet store, and [appellant] had
known [D.B.] since she was eleven years old. After
[D.B.] started working at the pet store, [appellant]
would tickle her. [Appellant's] behavior escalated,
and he began placing his hands down [D.B.]'s pants.
Eventually, [appellant] and [D.B.] engaged in sexual
intercourse. [Appellant] also performed oral sex on
[D.B.] on multiple occasions.
The abuse occurred at the pet store during regular
business hours. On two occasions, [D.B.]'s twelveyear-old friend witnessed the sexual activity.
[Appellant] also fondled [D.B.] during car trips to
New York. [D.B.] testified that [appellant] took her
on these trips "almost every single Monday" to pick
up supplies for the pet store. In addition to the
liaisons at work, [appellant] molested [D.B.] at
K.V.'s residence at least once. In 1997, [D.B.]'s
mother learned about the abuse and immediately
informed the police.
At No. 743 of 1997, the Commonwealth charged
[appellant] with multiple offenses related to the
molestation of [D.B.] Following a trial in 1998, a
jury convicted [appellant] of two (2) counts of
statutory sexual assault and one (1) count each of
aggravated indecent assault, indecent assault, and
corruption of minors.
On August 20, 1998, the
[trial] court sentenced [appellant] to an aggregate
term of four (4) to ten (10) years' imprisonment.
This Court affirmed the judgment of sentence on
November 30, 1999.
See Commonwealth v.

1 At the time of appellant's 1998 trial, D.B. was known as D.G. For the
purposes of continuity,- we will—refei—to-her as- D.B—throughout-this
memorandum.
- 2 -

J. S47044/17
Corliss,
750
A.2d
366
(unpublished memorandum).

(Pa.Super.

1999)

Prior to the start of the 1998 trial, [appellant] met
C.T. at the pet store. [Appellant] and C.T. married,
and C.T. became pregnant before [appellant's]
sentencing hearing. C.T. gave birth to [appellant's]
daughter, C.C., in 1999 while [appellant] was
[Appellant] remained incarcerated
incarcerated.
until 2008. Upon his release, [appellant] returned to
live with C.T. and C.C. C.T. had no concerns about
[appellant] being around C.C., because [appellant]
had convinced C.T. that he was actually innocent of
the charges pertaining to [D.B.]
When [appellant] would play with C.C., C.T. noticed
that [appellant] tickled the child and scratched the
child's back. The tickling started to bother C.C., and
she asked [appellant] not to touch her, but C.T. did
not intervene. [Appellant's] relationship with C.T.
ended in 2010, after C.T. discovered that [appellant]
was having an affair with another teenager.
In
2013, C.C. informed C.T. that [appellant] had
molested her. C.C. claimed that [appellant] would
put his hands down her pants and touch her vagina,
exposed his penis to C.C., and attempted to force
the child to perform oral sex on him.
Police arrested [appellant] for the offenses against
The media reported on
C.C. in July 2013.
[appellant's] arrest, and R.V. saw the coverage.
R.V. decided to contact police and inform them of the
abuse she suffered from 1995 until 1997.
At
No. 1749 of 2013, the Commonwealth charged
[appellant] with sex offenses committed against C.C.
At No. 2173 of 2013, the Commonwealth charged
[appellant] with sex offenses committed against
R.V.[Footnote 1]
On September 24, 2013, the
Commonwealth informed [appellant] that Nos. 1749
and 2173 of 2013 would be joined for trial.
[Appellant] filed counseled pretrial motions on
October 3, 2013, including a motion to sever the
Ultimately, the [trial] court granted
.cases..
[appellant's] motion to sever the cases for trial.
- 3 -

J. S47044/17

[Footnote 1:] At No. 1748 of 2013, the
Commonwealth also charged [appellant]
with offenses related to his failure to
register with state police pursuant to
Megan's Law. The matters of No. 1748
of 2013 are not at issue in this appeal.
Commonwealth

v.

Corliss,

No.

2091

EDA

2014,

unpublished

memorandum (Pa.Super, filed July 14, 2015).
The trial court provided the following procedural history:
[Appellant] was convicted by a jury on June 1, 2016
of various offenses following a trial in which these
two (2) cases were consolidated. In case #1749 CR
2013, [appellant] was convicted of Count 1,
Involuntary Deviate Sexual Intercourse With a Child;
Count 2, Criminal Attempt Involuntary Deviate
Sexual Intercourse With a Child; Count 3, Indecent
Assault; Count 4, Indecent Exposure; Count 5,
Incest; Count 6, Endangering the Welfare of a Child;
and, Count 7, Corruption of a Minor. [2 Appellant]
was convicted in case #2173 CR 2013 of Court 1,
Aggravated Indecent Assault; [3] and Count 2,
Aggravated Indecent Assault. . . .
[Appellant] was deemed a sexually violent predator
("SVP") on September 29, 2016 following a hearing,
which subjects him to mandatory lifetime sexual
offender registration requirements. [Appellant] was
then sentenced on October 7, 2016 in case #1749
CR 2013 to a total confinement of 360 months
(30 years) minimum to 720 months (60 years)
maximum. [Appellant] was sentenced on October 7,
2016 in case #2173 CR 2013 to a total confinement
of 108 months (9 years) minimum to 216 months
(18 years) maximum. The sentence in case #2173
2 18 Pa.C.S.A. §§ 3123(b), 901, 3126, 3127, 4302, 4304, 6301, and 3125,
respectively.
3 18 Pa.C.S.A. § 3125.
-4-

J. S47044/17
was run consecutive to case #1749 for a total period
of incarceration of 468 months (39 years) to
936 months (78 years). [Appellant] has filed timely
post-sentence motions.
[Appellant] was initially represented in these matters
by private counsel, Robert Saurman, Esquire, who
filed omnibus pre-trial motions on behalf of
[appellant. Appellant] then fired his legal counsel
and proceeded pro se following a hearing in which a
colloquy was given to [appellant] concerning his
right to counsel, a listing of the offenses and
maximum penalties if convicted, and that [appellant]
was making a voluntary waiver of counsel. The
Court also appointed stand-by counsel for [appellant.
Appellant] then represented himself pro se in filing
various motions and appeals to Orders. The matter
was set for trial and [appellant] then retained private
counsel prior to the start of trial.
[Appellant] terminated the services of his trial
counsel soon after the trial, and again proceeded to
represent himself following a hearing on his motion
to proceed pro se. [Appellant] was given another
colloquy on his pro se representation at that time.
[Appellant] represented himself at sentencing held
on October 7, 2016.
Following sentencing,
[appellant] filed post-sentence motions pro se. He
then retained counsel to represent him on the post­
sentence issues and counsel was afforded additional
time to file any additional post-sentence motions.
Counsel timely filed additional post-sentence
motions. [Appellant] then filed a motion to proceed
pro se once again, and his counsel also filed a
motion to withdraw. Following a hearing held on
November 23, 2016, and a colloquy placed on the
record, [appellant] was allowed to proceed pro se on
his post-sentence motions.
Trial court opinion, 12/15/16 at 1-3.
The trial court granted appellant's post-sentence motions in part and
denied appellant's post-sentence motions in part.
- 5 -

Specifically, appellant's

J. S47044/17
motion to reconsider his sentence for endangering the welfare of a child was
granted, and his sentence was reduced from 2-4 years' incarceration to be
served concurrently with his other sentences to 1-2 years' incarceration to
be served concurrently with his other sentences.

(Notes of testimony,

10/7/16 at 84; trial court order, 12/15/16).
Appellant filed a notice of appeal on January 3, 2017. The trial court
ordered appellant to produce a concise statement of errors complained of on
appeal pursuant to Pa.R.A.P. 1925(b) on January 4, 2017. Appellant timely
complied with the trial court's order on January 20, 2017. On January 23,
2017, the trial court issued an opinion pursuant to Pa.R.A.P 1925(a).
Appellant raises the following issues for our review:
1.

Whether a judgment of acquittal or an arrest of
judgment must issue as to six crimes convicted
of when the jury did not render a decision as to
the challenged element of negating the statute
of limitations.

2.

Whether the testimony of complainant C.C.
was sufficient to meet the elements of
involuntary deviate sexual intercourse and
incest.

3.

Whether testimony of intercourse, that
conflicts with incontrovertible DNA evidence,
and other false testimony suborned by ADA
Rakaczewski from bad acts witness Danielle
Brink, violates the 5th, 6th, and 14th
Amendments to the U.S. Constitution requiring
the conviction to be vacated.

- 6 -

J. S47044/17
4.

Whether the trial court's representation of the
exculpatory DNA evidence is violative (sic) of
the right to due process of law.[4]

5.

Whether Rakaczewski's deliberate omission of
exculpatory evidence and known credibility
challenges, as to complainant C.C., violated
[appellant's] right to due process of law, as
guaranteed through the U.S. Constitution,
warranting that the conviction and sentence be
vacated.

Appellant's brief at 4.

I.
In his first issue, appellant raises the issue of whether the jury was
provided with proper instructions pertaining to the statute of limitations.
Specifically, appellant avers that the statute of limitations had expired for
the following charges:

aggravated indecent assault, indecent assault,

indecent exposure, corruption of minors, and endangering the welfare of
children. (See appellant's brief at 10-11.)
A statute of limitations defense is properly raised prior to trial in an
omnibus motion to dismiss the charges. Commonwealth v. Corban Corp.,
909 A.2d 406, 411 (Pa.Super. 2006), affirmed, 957 A.2d 274 (Pa. 2008),
citing Commonwealth v. Rossetti, 863 A.2d 1185, 1190 (Pa.Super. 2004),
appeal denied, 878 A.2d 864 (Pa. 2005); Commonwealth v. Groff, 548
A.2d 1237, 1244 (Pa.Super. 1988). "The Commonwealth bears the burden
to establish that a crime as charged was committed within the applicable

4 Issue 4 is identified by appellant as a "subquestion" under his third issue.
- 7 -

J. S47044/17
statute of limitations period." Corban Corp., 909 A.2d at 411, citing Groff,
548 A.2d at 1248. A defendant must raise a statute of limitations defense
pretrial; otherwise, the defense is waived.

Id. at 1245 n.8, citing

Commonwealth v. Darush, 459 A.2d 727, 730 n.4 (Pa. 1983).
If the statute of limitations defense poses a question
of law, the judge may decide the issue pretrial or at
an appropriate time during trial. If the statute of
limitations poses a question of fact, the judge should
not decide the question but should present the
question for jury consideration.
Groff, 548 A.2d at 1248, n.8. "Where the date of discovery of criminal acts
is unrebutted, the issue of whether the statute of limitations for prosecution
has run is a question of law for the trial judge." Corban Corp., 909 A.2d at
410, citing Commonwealth v. Hoffman, 398 A.2d 658, 661 (Pa.Super.

1979).
Upon a review of the record, we find that appellant properly raised a
statute of limitations defense when he filed a pro se amended omnibus
pretrial motion on January 21, 2014, seeking dismissal of the following
charges due to the expiration of the statute of limitations: indecent assault,
indecent exposure, endangering the welfare of children, and corruption of
minors.

Accordingly, appellant has sufficiently preserved this issue for

appellate review, and we shall review this issue on its merits.
Appellant,

citing

42

Pa.C.S.A.

§

5552(a),

avers

that

the

Commonwealth failed to initiate criminal proceedings against appellant
within the statutory two-year time period. Appellant's reliance, however, is
- 8 -

J. S47044/17
misplaced. The Commonwealth charged appellant with four offenses subject
to the exceptions to the two-year statute of limitations found in 42 Pa.C.S.A.
§ 5552(c)(3). Subsection 5552(c)(3) provides, in relevant part,
(3)

Any sexual offense committed against a minor
who is less than 18 years of age any time up to
the later of the period of limitation provided by
law after the minor has reached 18 years of
age or the date the minor reaches 50 years of
age. . . .

42 Pa.C.S.A. § 5552(c)(3).
Appellant further avers that the Commonwealth failed to "allege any
statement in the Information as to any claimed tolling or an exception to the
statute of limitations . . . ." (Appellant's brief at 13.) Our supreme court
has held, however, that the Commonwealth is not required to include any
notice of tolling or exceptions to the statute of limitations in the criminal
information, so long as the defendant is not prejudiced. Commonwealth v.
Stockard, 413 A.2d 1088, 1092 (Pa. 1980). Specifically, the court stated:
The fact that the Commonwealth did not allege in the
[complaint] that it would seek to toll the statute of
limitations is of no consequence [if] there is no
prejudice to [defendant.] The Commonwealth did
inform [defendant] of the tolling of the statute of
limitations when the Commonwealth filed its answer
to [defendant's] motion to dismiss the complaint.
. . . As long as a defendant, some reasonable time
before trial, is [apprised] that the Commonwealth
will seek to toll the statute of limitations, the due
process requirements of notice are met.
Id., quoted by Commonwealth v. Morrow, 682 A.2d 347, 349 (Pa.Super.
1996), appeal denied, 693 A.2d 587 (Pa. 1997). In Morrow, similarly to

-9-

J. S47044/17
the defendant in Stockard, the Commonwealth responded to an omnibus
pretrial motion seeking dismissal on the grounds of the expiration of the
statute of limitations with a written notice of intention to toll the statute. Id.
This court found that the defendant was not prejudiced, as he was
"adequately and timely informed of the Commonwealth's intentions," prior to
trial." Id. In Commonwealth v. Russell, 938 A.2d 1082, 1088 (Pa.Super.
2007), appeal denied, 956 A.2d 434 (Pa. 2008), this court reaffirmed that
the Commonwealth satisfies the notice requirement so long as it notifies the
defendant of its intention to toll the statute of limitations at a reasonable
time before trial.
Here,

appellant filed

an amended

omnibus

pretrial

motion

on

January 21, 2014. The Commonwealth subsequently filed a written notice of
tolling of the statute of limitations on February 24, 2014 — over two years
before the start of trial on May 31, 2016.

We, therefore, find that the

Commonwealth provided adequate written notice of its intent to toll the
statute of limitations within a reasonable time before trial.

Accordingly,

appellant's first issue is without merit.

II.
Appellant next challenges the sufficiency of the evidence, particularly
as it pertains to C.C.'s testimony relating to appellant's convictions of
involuntary deviate sexual intercourse ("IDSI") and incest.
In_reviewing_the.s.uffj.cien.cy_of_the_evidence,_we_v.iew.
all evidence admitted at trial in the light most

- 10 -

J. S47044/17
favorable to the Commonwealth, as verdict winner,
to see whether there is sufficient evidence to enable
[the fact finder] to find every element of the crime
beyond a reasonable doubt. This standard is equally
applicable to cases where the evidence is
circumstantial rather than direct so long as the
combination of the evidence links the accused to the
crime beyond a reasonable doubt.
Although a
conviction must be based on "more than mere
suspicion or conjecture, the Commonwealth need not
establish guilt to a mathematical certainty."
Moreover, when reviewing the sufficiency of the
evidence, the Court may not substitute its judgment
for that of the fact finder; if the record contains
support for the convictions, they may not be
disturbed.
Commonwealth v. Stokes, 78 A.3d 644, 649 (Pa.Super. 2013) (citations
omitted), appeal denied, 89 A.3d 661 (Pa. 2014).

The Commonwealth

may satisfy its burden of proving a defendant's guilt beyond a reasonable
doubt by using wholly circumstantial evidence. Commonwealth v. Diggs,
949 A.2d 873, 877 (Pa. 2008), cert, denied, 556 U.S. 1106 (2009).
This court has also

previously stated that the

uncorroborated

testimony of a victim of a sexually based offense is sufficient to uphold a
conviction, so long as the testimony is believed by the trier-of-fact.
Commonwealth v. Trippett, 932 A.2d 188, 194 (Pa.Super. 2007), citing
Commonwealth v. Charlton, 902 A.2d 554, 562 (Pa.Super. 2006).

A

fact-finder is free to believe all, part, or none of the evidence, including
uncorroborated testimony, presented.

Commonwealth v. Mosley, 114

A.3d_l072,_1087_( Pa. Su per. _2015 )_(citations_o m itted ),_appeaLdenied,AM

- 11 -

J. S47044/17
A.3d 1215 (Pa. 2017). Therefore, how much credibility and weight is given
to the uncorroborated testimony is fully within the exclusive purview of the
fact-finder.
In the instant case, after reviewing the evidence presented, cast in the
light most favorable to the Commonwealth, as verdict winner, we find that
the evidence is sufficient to warrant the jury's convictions for IDSI and
incest.
IDSI is defined, in relevant part, as:
(b)

Involuntary deviate sexual intercourse
with a child.—A person commits involuntary
deviate sexual intercourse with a child, a
felony of the first degree, when the person
engages in deviate sexual intercourse with a
complainant who is less than 13 years of age.

18 Pa.C.S.A. § 3123(b).

The General Assembly defined "deviate sexual

intercourse" as:
[sjexual intercourse per os or per anus between
human beings and any form of sexual intercourse
with an animal. The term also includes penetration,
however slight, of the genitals or anus of another
person with a foreign object for any purpose other
than good faith medical, hygienic or law enforcement
procedures.
18 Pa.C.S.A. § 3101; see a/so Commonwealth v. Kelley, 801 A.2d 551,
555 (Pa. 2002), citing Commonwealth v. Lee, 638 A.2d 1006 (Pa.Super.
1994), appeal denied, 647 A.2d 898 (Pa. 1994) (interpreting sexual
intercourse and deviate sexual intercourse to include acts of oral and anal
sex).

- 12 -

J. S47044/17
During the trial, C.C. testified that she was born on February 16, 1999,
and was 17 years old at the time of trial. (Notes of testimony, 5/31/16 at
88.) At the time that appellant lived with C.C., C.C. was 10 years old. (Id.
at 89.)

C.C. also testified that appellant touched her chest and vagina,

exposed his penis, tried to place his penis in her mouth, and put his mouth
directly on her vagina. (Id. at 94-95.) We find that this testimony supports
the jury's guilty verdict for IDSI.

See generally Commonwealth v.

Mawhinney, 915 A.2d 107, 111 (Pa.Super. 2006), appeal denied, 932
A.2d 1287 (Pa. 2007) (finding that the victim's testimony describing
elements of IDSI is sufficient evidence to warrant conviction).
Appellant next avers that the Commonwealth failed to sufficiently
prove the elements of incest to warrant a conviction. Specifically, appellant
claims that a civil finding by default establishing paternity of C.C. does not
"prove[] paternity beyond a reasonable doubt," and that such a question
should have been submitted to the jury. (Appellant's brief at 26.) Upon a
review of the record, however, that question was submitted to the jury.
During the trial court's jury instructions, the jury was instructed that it was
required to find, beyond a reasonable doubt, that appellant "had sexual
intercourse with a descendant of the whole or half blood. This relationship
includes blood relationships with regard to legitimacy." (Notes of testimony,
6/1/16 at 86.)

Our supreme court has held that juries are presumed to

follow_the-instructions_of_the_court__Commonwealth v. Brown, 786 A.2d

- 13 -

J. S47044/17
961, 971 (Pa. 2001), cert, denied, 537 U.S. 1187 (2003). Our review of
the record reflects that the Commonwealth sufficiently presented evidence
proving beyond a reasonable doubt that C.C. is appellant's natural daughter,
and appellant's claim is without merit.
Appellant further avers that incest is a lesser included offense to IDSI,
and that the two offenses merge for sentencing purposes. Incest is defined
as:
(a)

General rule.—Except as provided under
subsection (b), a person is guilty of incest, a
felony of the second degree, if that person
knowingly marries or cohabits or has sexual
intercourse with an ancestor or descendant, a
brother or sister of the whole or half blood or
an uncle, aunt, nephew or niece of the whole
blood.

(b)

Incest of a minor.—A person is guilty of
incest of a minor, a felony of the second
degree, if that person knowingly marries,
cohabits with or has sexual intercourse with a
complainant who is an ancestor or descendant,
a brother or sister of the whole or half blood or
an uncle, aunt, nephew or niece of the whole
blood and:
(1)

(c)

is under the age of 13 years . . .

Relationships.—The relationships referred to
in this section include blood relationships
without regard to legitimacy, and relationship
of parent and child by adoption.

18 Pa.C.S.A. § 4302.
A court is precluded "from merging sentences when each offense
contains a statutory element that the other does not." Commonwealth v.
- 14 -

J. S47044/17
Raven, 97 A.3d 1244, 1250 (Pa.Super. 2014), appeal denied, 105 A.3d
736 (Pa. 2014), citing Commonwealth v. Baldwin, 985 A.2d 830, 834 (Pa.

2009).

In

Commonwealth v.

White, this court found that "the

Commonwealth suffered two injuries" through the defendant's single act
when he engaged in forcible sexual intercourse (rape) and engaged in sexual
intercourse with a descendant (incest).

491 A.2d 252, 256 (Pa.Super.

1985).
Here, we find that appellant's convictions for IDSI and incest do not
merge for sentencing purposes.

Much like the defendant in White, the

Commonwealth suffered two injuries as a result of appellant's conduct
pertaining to C.C.

The Commonwealth first suffered an injury when

appellant engaged in involuntary deviate sexual
established by C.C.'s testimony.

intercourse, as was

During the same act, the Commonwealth

suffered further injury because appellant engaged in sexual intercourse with
his natural daughter. Accordingly, we find that incest is not a lesser included
offense to IDSI, and that the two convictions do not merge for sentencing
purposes. Accordingly, appellant's second issue is without merit.

III.
In his third issue for our review, appellant specifically avers that the
Commonwealth "provided no discovery relevant to [D.B's] anticipated
testimony,

and

refused

to

correct

■Commonwealth], actually elicited it."

her

perjury

at

trial

(Appellant's brief at 29.)

- 15 -

as

[the

For this

J. S47044/17
claim, appellant relies on a report dated March 1, 2017 purporting to
"'exclude' [appellant] as the donor of any DNA found in [D.B.'s] underwear."
(Id. at 36.) Appellant also relies on the fact that he was not convicted on all
charges brought against him by the Commonwealth at the 1998 trial
pertaining to his encounters with D.B.
We shall first analyze appellant's claim pertaining to the March 1, 2017
DNA report. The report is not found within the record that was certified by
the trial court.
The fundamental tool for appellate review is the
official record of the events that occurred in the trial
court.
Commonwealth v. Williams, 715 A.2d
1101, 1103 (Pa. 1998). To ensure that an appellate
court has the necessary records, the Pennsylvania
Rules of Appellate Procedure provide for the
transmission of a certified record from the trial court
to the appellate court. Id. The law of Pennsylvania
is well settled that matters which are not of record
cannot be considered on appeal. Commonwealth
v. Bracalielly, 658 A.2d 755, 763 (Pa. 1995);
Commonwealth v. Baker, 614 A.2d 663, ,672 (Pa.
1992); Commonwealth v. Quinlan, 412 A.2d 494,
496 (Pa. 1980); Commonwealth v. Young, 317
A.2d 258 (Pa. 1974). Thus, an appellate court is
limited to considering only the materials in the
certified
record
when
resolving
an
issue.
Commonwealth v. Walker, 878 A. 2d 887, 888
(Pa.Super. 2005). In this regard, our law is the
same in both the civil and criminal context because,
under the Pennsylvania Rules of Appellate Procedure,
any document which is not part of the officially
certified record is deemed non-existent—a deficiency
which cannot be remedied merely by including copies
of the missing documents in a brief or in the
reproduced record. Commonwealth v. Kennedy,
868 A.2d 582, J593 _(Pa.Super. 2005); Lundy_v..
Manchel, 865 A.2d 850, 855 (Pa.Super. 2004). The
- 16 -

J. S47044/17
emphasis on the certified record is necessary
because, unless the trial court certifies a document
as part of the official record, the appellate judiciary
has no way of knowing whether that piece of
evidence was duly presented to the trial court or
whether it was produced for the first time on appeal
and improperly inserted into the reproduced record.
Simply put, if a document is not in the certified
record, the Superior Court may not consider it.
Walker, 878 A.2d at 888.
Commonwealth v. Preston, 904 A.2d 1, 6-7 (Pa.Super. 2006), appeal
denied, 916 A.2d 632 (Pa. 2007).
Because the March 1, 2017 report is not part of the certified record,
we cannot consider the contents of the report when deciding appellant's
third issue.
We next turn to appellant's contention that the Commonwealth
suborned

perjury

by

presenting

testimony

from

D.B.

pertaining

to

encounters with appellant in which appellant was acquitted of charges
brought by the Commonwealth. Specifically, appellant relies on the fact that
the 1998 jury, while convicting him of two counts of statutory sexual assault
and one count each of aggravated indecent assault and corruption of minors,
also acquitted him of one count of statutory sexual assault, two counts of
aggravated indecent assault, and three counts each of indecent assault and
corruption of minors.

Appellant, accordingly, claims that "an alibi witness

rendered [D.B.'s] claims patently false as that jury rejected sixty-six percent
(66%) of her claims and properly acquitted [appellant] thereof . . ."
(Appellant's brief at 30.)
- 17 -

J. S47044/17
We disagree with appellant's reliance on the 1998 jury's verdict. This
court's decision in Commonwealth v. Ardinger, 839 A.2d 1143 (Pa.Super.
2003), is particularly instructive.

In Ardinger, the Commonwealth sought

to introduce testimony from an alleged victim and the victim's mother in an
attempt

to

establish

Pa.R.E. 404(b)(2).

evidence

Id. at 1144.

of

a

common

plan

pursuant

to

Both the victim and his mother were to

provide testimony of an incident that occurred in Maryland, for which the
defendant was charged, but not convicted, at the time of the Pennsylvania
proceedings.

Id.

This court reiterated that '"Pa. R. Evid. 404(b) is not

limited to evidence of crimes that have been proven beyond a reasonable
doubt in court. It encompasses both prior crimes and prior wrongs and acts,
the latter of which, by their nature, often lack "definitive proof. inn

Id.,

quoting Commonwealth v. Lockcuff, 813 A.2d 857, 861 (Pa.Super. 2002),
appeal denied, 825 A.2d 638 (Pa. 2003).
The Ardinger court further explained that it was up to the jury sitting
for Mr. Ardinger's trial to determine the credibility of the victim and his
mother as they testified regarding the charges pending in Maryland.
Ardinger, 839 A.2d at 1146.

Additionally, this court noted that both

witnesses would be subject to cross-examination that could "include
questions which will enable the jury to know that the charges against
[Mr. Ardinger] in Maryland have not yet resulted in a conviction." Id.

- 18 -

J. S47044/17
In the instant appeal, it was within the jury's sole purview to
Likewise, appellant's trial

determine the credibility of D.B.'s testimony.

counsel had the opportunity on cross-examination to include questions that
would enable the jury to know that appellant was not convicted of all
charges against him at the 1998 trial.
Additionally, we disagree with appellant's claim that his acquittal of
several charges in 1998 is tantamount to the jury finding D.B.'s testimony to
not be credible. This court has previously cautioned that
an acquittal cannot be interpreted as a specific
finding in relation to some of the evidence
presented; and acquittal may represent the jury's
exercise of its historic power of lenity; and a contrary
rule would abrogate the criminal procedural rules
that empower a judge to determine all questions of
law and fact as to summary offenses.
Commonwealth
(eu banc),

v.

Barger,

appeal

denied,

956

A.2d

980

A.2d

458,
109

461

(Pa.Super.

(Pa.

2009),

2008)
citing

Commonwealth v. Wharton, 594 A.2d 696, 698-699 (Pa.Super. 1991),
Commonwealth v. Yachymiak, 505 A.2d 1024, 1026-1027 (Pa.Super.

1986).
Therefore, we find that determining the credibility of D.B.'s bad acts
testimony was within the sole purview of the jury sitting in appellant's 2016
trial, and accordingly, appellant's third issue is without merit.

- 19 -

J. S47044/17
IV.
In his fourth issue for our review, appellant avers that "the trial court's
representation of the exculpatory DIMA evidence is [in violation] of the right
to due process of law.

(Appellant's brief at 40-47.)

Appellant, however,

failed to include this issue in his concise statement of errors complained of
on appeal.
[I]t is well-settled that issues not included in an
appellant's statement of questions involved and
concise statement of errors complained of on appeal
are waived. Krebs v. United Refining Co. of Pa.,
893 A.2d 776, 797 (Pa.Super. 2006) (citations
omitted) ("We will not ordinarily consider any issue if
it has not been set forth in or suggested by an
appellate brief's statement of questions involved,
and any issue not raised in a statement of matters
complained of on appeal is deemed waived."). With
respect to issues not included in a concise
statement, our Supreme Court has instructed that
this Court has no discretion in choosing whether to
find waiver. Waiver is mandatory, and this Court
may not craft ad hoc exceptions or engage in
City of Philadelphia v.
selective enforcement.
Lerner, 151 A.3d 1020, 1024 (Pa. 2016), quoting
Commonwealth v. Hill, 16 A.3d 484, 494 (Pa.
2011).
In re M.Z.T.M.W., 163 A.3d 462, 466 (Pa.Super. 2017).
We, therefore, find that appellant's fourth issue is waived, as he failed
to include the issue in his concise statement of errors complained of on
appeal.

- 20 -

J. S47044/17
V.
In his final issue, appellant alleges prosecutorial misconduct in that the
Commonwealth deliberately omitted exculpatory evidence and "known
credibility challenges" as to C.C.'s testimony.

(See appellant's brief at

47-55.) In essence, appellant is alleging that the Commonwealth committed
a Brady violation. See Brady v. Maryland, 373 U.S. 83 (1963).
[Our supreme court] summarized the law in Brady
in Commonwealth v. Strong, 761 A.2d 1167 (Pa.
2000):
In Brady, the United States Supreme
Court declared that due process is
offended when the prosecution withholds
evidence favorable to the accused. . . .
The Brady court established the
obligation of the prosecution to respond
affirmatively to a request for production
of exculpatory evidence with all evidence
material to the guilt or punishment of the
accused. Where evidence material to the
guilt or punishment of the accused is
withheld, irrespective of the good or bad
faith of the prosecutor, a violation of due
process has occurred.
Id. at 1171 (citations and footnote omitted).
In United States v. Bagley, 473 U.S. 667, 677
(1985), the Supreme Court concluded that
"impeachment evidence ... as well as exculpatory
evidence, falls within the Brady rule," and held that,
regardless of request, favorable evidence is material,
and constitutional error results from its suppression
by the government "if there is reasonable probability
that, had the evidence been disclosed to the
defense, the result of the proceeding would have
been_d\fferer\t.l_Id._at_682._See_Strong,_supra_at
1771 ("As Brady and its progeny dictate, when the

- 21 -

J. S47044/17
failure of the prosecution to produce material
evidence raises a reasonable probability that the
result of the trial would have been different if the
evidence had been produced, due process has been
violated and a new trial is warranted." (citing
Bagley)); see also Commonwealth v. Moose,
602 A.2d 1265, 1272 (Pa. 1992) ("When the
reliability of a witness may be determinative of guilt
or innocence, non-disclosure of evidence affecting
that witness's credibility runs afoul of Brady's
disclosure requirement.").
In determining whether a reasonable probability of a
different outcome has been demonstrated, "[t]he
question is not whether the defendant would more
likely than not have received a different verdict with
the evidence, but whether in its absence he received
a fair trial, understood as a trial resulting in a verdict
worthy of confidence." Kyles v. Whitley, 514 U.S.
419, 434 (1995). A "reasonable probability" of a
different result is shown when the government's
suppression of evidence "undermines confidence in
the outcome of the trial." Bagley, supra at 678.
The United States Supreme Court has made clear
that Bagley's materiality standard is not a
sufficiency of the evidence test. Kyles, supra at
434. A Brady violation is established "by showing
that the favorable evidence could reasonably be
taken to put the whole case in such a different light
as to undermine confidence in the verdict." Kyles,
supra at 435. Importantly, "[t]he mere possibility
that an item of undisclosed information might have
helped the defense, or might have affected the
outcome of the trial, does not establish materiality in
Commonwealth v.
the constitutional sense.
McGill, 832 A.2d 1014, 1019 (Pa. 2003). "[I]n
order to be entitled to a new trial for failure to
disclose evidence affecting a witnesses] credibility,
the defendant must demonstrate the reliability of the
witness may well be determinative of his guilt or
innocence." Commonwealth v. Johnson, 727 A.2d
1089, 1094 (Pa. 1999). In assessing the significance
of the evidence withheld, a reviewing court must
bear in mind that not every item of the prosecution's
- 22 -

J. S47044/17
case would necessarily have been directly undercut
had the Brady evidence been disclosed. Kyles,
supra at 451.
Commonwealth v. Weiss, 986 A.2d 808, 814-815 (Pa. 2009) (citations
reformatted).
Brady, however, does not relieve a defendant of his duty to perform
due diligence and conduct reasonable investigation in his own defense.
Indeed, our supreme court has stated that, "[ijt is well established that
'no Brady violation occurs where the parties had equal access to the
information or if the defendant knew or could have uncovered such evidence
with reasonable diligence/"

Commonwealth v. Spotz, 896 A.2d 1191,

1248 (Pa. 2006), citing Commonwealth v. Morris, 822 A.2d 684, 696 (Pa.
2003).
Appellant provides the following litany of evidence that he avers was
improperly withheld by the Commonwealth:
a.

[Appellant] resided with C.C. from August
2008 until June 10, 2010. Yet, from August
2008 until July of 2013 no claim of indecent
assault or inappropriate sexual conduct is
made to any person whatsoever.

b.

After separation from C.C/s mother, [C.T.], in
June of 2010, a number of legal filings were
made in custody and for a protection from
abuse order that was abandoned.

c.

When pressed at the preliminary hearing C.C.
admitted:_______________________________

- 23 -

J. S47044/17
"Well, he did ignore me.
Like,
mostly, he ignored me in the
beginning, but toward the end he
[N.T.
just ignored everyone."

7/30/13 at 19.]
d.

C.C.'s
mother
[C.T.]
made
numerous
fraudulent claims in Protection from Abuse
petitions, two of three filings were withdrawn.

e.

C.C/s mother [C.T.] had a pattern of noncompliance with mandatory notice to the
custody
court
regarding
her
living
arrangements, location and schooling of C.C.
and then kidnapped C.C. to Hawai'i.

f.

Ultimately, [C.T.]'s fraud in support was
revealed, and no Judge, Higgins vacated a
support order, in [appellant's] favor, when
asked why she refused to appear at support
master hearings, she lied, claiming C.C. was
sick those days.

9-

Only when [appellant] moved to verify [C.T.]'s
fraud to Judge Higgins did the lies get
advanced
of inappropriate
conduct
by
[appellant], in July of 2013.

h.

Judge Higgins' support order aptly reflects
[C.T.]'s lie of C.C. being home sick, upon
subpoena, evidence from C.C.'s school
attendance verifies that [C.T.] lied.

i.

While awaiting trial, [C.T.] had kidnapped C.C.
and fled to Hawai'i, when [appellant] petitioned
the custody court over this, [ADA] Rakaczewski
sought free legal representation for her, rather
than properly prosecute her or ensure the
safety of the child.

J-

In the affidavit of probable cause C.C.'s story
is that [appellant's] penis does not enter her
mouth,.a-cJajm_she_repeats_onjnterview_at-the.
child advocacy center and at the preliminary
- 24 -

J. S47044/17
hearing; however, at trial she changes her
story and [ADA] Rakaczewski did nothing to
inform the jury of C.C.'s prior claims.
Appellant's brief at 48-50 (citations omitted).
Appellant fails to enumerate any evidence that the Commonwealth
improperly suppressed to which he did not have equal access and/or could
have obtained by exercising reasonable diligence. Indeed, in several of the
items listed above, appellant avers that the Commonwealth improperly
suppressed information that was obtainable from the transcript of appellant's
preliminary hearing.

Upon an exercise of reasonable diligence, appellant's

trial counsel could have easily confronted C.C. with any inconsistencies
found in the preliminary hearing transcript.
Appellant also avers that C.T. and C.C. sent him letters and e-mails,
which were improperly suppressed by the Commonwealth. Appellant, as the
recipient of the letters and e-mails in question, had equal access to these
documents, and his trial counsel could have used these documents on
cross-examination.
Finally, appellant avers that the Commonwealth improperly withheld
filings from appellant's litigation with C.T. pertaining to custody of C.C. As a
party to that litigation, appellant would have been served with any and all
filings from C.T., and accordingly would have had access to those documents
for impeachment purposes during trial.

- 25 -

J. S47044/17
We find that appellant had equal access to and/or could have, with the
exercise of reasonable diligence, obtained all of the evidence that he avers
was

improperly

withheld

by the

Commonwealth.

Accordingly,

the

Commonwealth did not violate the rule set forth in Brady, and appellant's
fifth issue is without merit.
Judgment of sentence affirmed.
Judgment Entered.

Joseph D. Seletyn, Esq.
Prothonotary

Date: 12/8/2017

- 26 -

